<html>
<title> - OPEN HEARING WITH ATTORNEY GENERAL JEFF SESSIONS</title>
<body><pre>[Senate Hearing 115-94]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 115-94
 
            OPEN HEARING WITH ATTORNEY GENERAL JEFF SESSIONS

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         TUESDAY, JUNE 13, 2017

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
      
      
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
         
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-891 PDF               WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001            
         
         
         
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             JOE MANCHIN III, West Virginia
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk
                                CONTENTS

                              ----------                              

                             JUNE 13, 2017

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Warner, Hon. Mark R., Vice Chairman, a U.S. Senator from Virginia     2

                                WITNESS

Sessions, Hon. Jeff, Attorney General of the United States.......     5
    Prepared statement...........................................     9


            OPEN HEARING WITH ATTORNEY GENERAL JEFF SESSIONS

                              ----------                              


                         TUESDAY, JUNE 13, 2017

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:42 p.m. in Room 
SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Committee Members Present: Senators Burr, Warner, Risch, 
Rubio, Collins, Blunt, Lankford, Cotton, Cornyn, McCain, 
Feinstein, Wyden, Heinrich, King, Manchin, Harris, and Reed.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call the hearing to order, 
please.
    Attorney General Sessions, I appreciate your willingness to 
appear before the committee today. I thank you for your years 
of dedicated service as a member of this body and your recent 
leadership at the Department of Justice.
    As I mentioned when Director Comey appeared before us last 
week, this committee's role is to be the eyes and ears for the 
other 85 members of the United States Senate and for the 
American people, ensuring that the intelligence community is 
operating lawfully and has the necessary tools to keep America 
safe.
    The community is a large and diverse place. We recognize 
the gravity of our investigation into Russia's interference in 
the 2016 U.S. elections. But I remind our constituents that, 
while we investigate Russia, we are scrutinizing CIA's budget--
while we're investigating Russia, we are still scrutinizing 
CIA's budget, NSA's 702 program, our Nation's satellite 
program, and the entire IC effort to recruit and retain the 
best talent we can find in the world.
    More often than not, the committee conducts its work behind 
closed doors, a necessary step to ensure that our most 
sensitive sources and methods are protected. The sanctity of 
these sources and methods are at the heart of the intelligence 
community's ability to keep us safe and to keep our allies safe 
from those who seek to harm us.
    I've said repeatedly that I do not believe any committee--
that the committee does should be done in public. But I also 
recognize the gravity of the committee's current investigation 
and the need for the American people to be presented the facts, 
so that they might make their own judgments.
    It is for that reason that this committee has now held its 
tenth open hearing of 2017, more than double that of the 
committee in recent years, and the fifth on the topic of 
Russian interference.
    Attorney General Sessions, this venue is your opportunity 
to separate fact from fiction and to set the record straight on 
a number of allegations reported in the press. For example, 
there are several issues that I'm hopeful we will address 
today:
    One: did you have any meetings with Russian officials or 
their proxies on behalf of the Trump campaign or during your 
time as Attorney General?
    Two, what was your involvement with candidate Trump's 
foreign policy team and what were their possible interactions 
with Russians?
    Three, why did you decide to recuse yourself from the 
government's Russia investigation?
    And fourth, what role, if any, did you play in the removal 
of then-FBI Director Comey?
    I look forward to a candid and honest discussion as we 
continue to pursue the truth behind Russia's interference in 
the 2016 elections. The committee's experienced staff is 
interviewing the relevant parties, having spoken to more than 
35 individuals to date, to include just yesterday an interview 
of former Homeland Security Secretary Jeh Johnson. We also 
continue to review some of the most sensitive intelligence in 
our country's possession.
    As I've said previously, we will establish the facts, 
separate from rampant speculation, and lay them out for the 
American people to make their own judgment. Only then will we 
as a Nation be able to put this episode to rest and look to the 
future.
    I'm hopeful that members will focus their questions today 
on the Russia investigation, and not squander the opportunity 
by taking political or partisan shots. The Vice Chairman and I 
continue to lead this investigation together on what is a 
highly charged political issue. We may disagree at times, but 
we remain a unified team with a dedicated, focused, and 
professional staff working tirelessly on behalf of the American 
people to find the truth.
    The committee has made much progress as the political winds 
blow forcefully around us and I think all members would agree 
that, despite a torrent of public debate on who and what 
committee might be best suited to lead on this issue, the 
Intelligence Committee has lived up to its obligation to move 
forward with purpose and above politics.
    Mr. Attorney General, it's good to have you back.
    I would now turn to the Vice Chairman for any remarks he 
might have.

   OPENING STATEMENT OF HON. MARK WARNER, U.S. SENATOR FROM 
                            VIRGINIA

    Vice Chairman Warner. Thank you, Mr. Chairman. And I want 
to also thank the way that we are proceeding on this 
investigation.
    Mr. Attorney General, it's good to see you again, and we 
appreciate your appearance on the heels of Mr. Comey's 
revealing testimony last week.
    I do, though, want to take a moment on the outset and first 
express some concern with the process by which we are seeing 
you, the Attorney General, today. It's my understanding that 
you were originally scheduled to testify in front of the House 
and Senate Appropriations Committees today. I know those 
appearances have been canceled to come here instead.
    While we appreciate this testimony before our committee, I 
believe, and I believe I speak for many of my colleagues--that 
I believe he should also answer questions from members of those 
committees and the Judiciary Committee as well. Mr. Attorney 
General, it's my hope that you will reschedule those 
appearances as soon as possible.
    In addition, I want to say at the outset that, while we 
consider your appearance today as just the beginning of our 
interaction with you and your Department, Mr. Attorney General, 
we had always expected to talk to you as part of our 
investigation. We believed it would be actually later in the 
process. We're glad to accommodate your request to speak to us 
today. But we also expect to have your commitment to cooperate 
with all future requests and make yourself available as 
necessary to this committee for, as the Chairman has indicated, 
this very important investigation.
    Now let's move to the subject of today's discussion. Let's 
start with the campaign. You were an early and ardent supporter 
of Mr. Trump. In March, you were named as chairman of the Trump 
campaign's National Security Advisory Committee. You were much 
more than a surrogate. You were a strategic adviser, who helped 
shape much of the campaign's national security strategy. No 
doubt, you will have key insights about some of the key Trump 
associates that we're seeking to hear from in the weeks ahead.
    Questions have also been raised about some of your own 
interactions with Russian officials during the campaign. During 
your confirmation hearing in January, you said, quote, you 
``did not have communications with Russians.'' Senator Leahy 
later asked you in writing whether you'd been in contact with 
anyone connected to any part of Russian government about the 
2016 election. You answered, I believe, with a definitive no.
    Despite that fact--despite that, the fact is, as we 
discovered later, that you did have interactions with Russian 
government officials during the course of the campaign. In 
March, you acknowledged two meetings with the Russian 
ambassador. Yet there's also been some public reports of a 
possible third meeting at the Mayflower Hotel on April 27th.
    I hope that today you will help clear up those 
discrepancies. We also expect and hope--this is very 
important--that you will be willing to provide the committee 
with any documents that we would need to shed light on this 
issue, such as e-mails or calendars.
    Then there's the topic of the firing of former FBI Director 
Comey. Last Thursday, we received testimony from Mr. Comey. 
Under oath, he outlined his very troubling interactions with 
the President, as well as the circumstances of his firing. A 
few disturbing points stood out.
    First, Mr. Comey, who has decades of experience at the 
Department of Justice and at the FBI, serving under presidents 
of both parties, was so unnerved by the actions of the 
President that he felt, quote, ``compelled to fully document 
every interaction'' they had.
    Mr. Comey sat where you are sitting today and testified 
that he was concerned that the President of the United States 
might lie about the nature of their meetings. That's a shocking 
statement from one of our Nation's top law enforcement 
officials.
    We also heard that Director Comey took it as a direction 
from the President that he was to drop the FBI's investigation 
into former National Security Adviser General Mike Flynn.
    Finally, we heard from Mr. Comey that he believes he was 
fired over his handling of the Russia investigation. The 
President himself confirmed this in statements to the media. 
This is deeply troubling for all of us who believe, on both 
sides of the aisle, in preserving the independence of the FBI.
    We have a lot of work in order to follow up on these 
alarming disclosures. Mr. Attorney General, your testimony 
today is an opportunity to begin the process of asking those 
questions.
    For instance, again--I know others will ask about this--you 
recused yourself from the Russia investigation, yet you 
participated in the firing of Mr. Comey over the handling of 
that same investigation. We want to ask you about how you view 
your recusal and whether you believe you've complied with it 
fully.
    In addition, we heard from Mr. Comey last week that the 
President asked you to leave the Oval Office so that he could 
speak one on one with Mr. Comey. Again, a very concerning 
action. We will need to hear from you about how you viewed the 
President's request and whether you thought it was appropriate.
    We will also want to know if you are aware of any attempts 
by the President to enlist leaders in the intelligence 
community to undermine this very same Russia investigation.
    Most importantly, our committee will want to hear what you 
are doing to ensure that the Russians or any other foreign 
adversaries cannot attack our democratic process like this ever 
again.
    I'm concerned that the President still does not recognize 
the severity of the threat. He to date I believe has not even 
acknowledged the unanimous conclusions of the U.S. intelligence 
community that Russia massively intervened in our elections.
    The threat we face is real, and it's not limited to us. The 
recent events in France are again a stark reminder that all 
Western democracies must take steps to protect themselves. I 
believe the United States can and must be a leader in this 
effort, but it will require our Administration to get serious 
about this matter.
    Finally, in the past several weeks we've seen a concerning 
pattern of administration officials refusing to answer public, 
unclassified questions about allegations about the President 
and this investigation. We had a hearing with this subject last 
week. I want to commend the Chairman, who at the end of that 
hearing made very clear that our witnesses--that it was not 
acceptable for our witnesses to come before Congress without 
answers. The American people deserve to know what's going on 
here.
    Thank you, Mr. Chairman. I look forward to the witness's 
testimony.
    Chairman Burr. Thank you, Vice Chairman.
    Attorney General Sessions, if you would stand, I will 
administer the oath to you. Raise your right hand if you would, 
please.
    Do you solemnly swear to tell the truth and the whole truth 
and nothing but the truth, so help you God?
    General Sessions. I do.
    Chairman Burr. Please, be seated.
    Thank you, Attorney General Sessions. The floor is yours.

TESTIMONY OF HON. JEFF SESSIONS, ATTORNEY GENERAL OF THE UNITED 
                             STATES

    General Sessions. Thank you very much, Chairman Burr and 
Ranking Member Warner, for allowing me to publicly appear 
before your committee today. I appreciate the committee's 
critically important efforts to investigate Russian 
interference with our democratic processes. Such interference 
can never be tolerated and I encourage every effort to get to 
the bottom of any such allegations. As you know, the Deputy 
Attorney General has appointed a special counsel to investigate 
the matters related to the Russian interference in the 2016 
election.
    I'm here today to address several issues that have been 
specifically raised before this committee, and I appreciate the 
opportunity to respond to questions as fully as the Lord 
enables me to do so. But, as I advised you, Mr. Chairman, and 
consistent with longstanding Department of Justice practice, I 
cannot and will not violate my duty to protect the confidential 
communications I have with the President. Now, let me address 
some issues directly.
    I did not have any private meetings, nor do I recall any 
conversations with any Russian officials at the Mayflower 
Hotel. I did not attend any meetings at that event separately. 
Prior to the speech I attended by the President that day, I 
attended a reception with my staff that included at least two 
dozen people and President Trump. Though I do recall several 
conversations that I had during that pre-speech reception, I do 
not have any recollection of meeting or talking to the Russian 
ambassador or any other Russian officials. If any brief 
interaction occurred in passing with the Russian ambassador 
during that reception, I do not remember it. After the speech, 
I was interviewed by the news media--there was an area for that 
in a different room--and then I left the hotel.
    But whether I ever attended a reception where the Russian 
ambassador was also present is entirely beside the point of 
this investigation into Russian interference in the 2016 
campaign. Let me state this clearly, colleagues. I have never 
met with or had any conversation with any Russians or any 
foreign officials concerning any type of interference with any 
campaign or election in the United States. Further, I have no 
knowledge of any such conversations by anyone connected to the 
Trump campaign.
    I was your colleague in this body for 20 years, at least 
some of you, and the suggestion that I participated in any 
collusion, that I was aware of any collusion with the Russian 
government to hurt this country, which I have served with honor 
for 35 years, or to undermine the integrity of our democratic 
process, is an appalling and detestable lie.
    Relatedly, there is the assertion that I did not answer 
Senator Franken's question honestly at my confirmation hearing. 
Colleagues, that is false--I can't say colleagues, now. I'm no 
longer part of this body. But, former colleagues, that is 
false. This is what happened.
    Senator Franken asked me a rambling question, after some 
six hours of testimony, that included dramatic new allegations 
that the United States intelligence community, the U.S. 
intelligence community, had advised President-elect Trump, 
quote, ``that there was a continuing exchange of information 
during the campaign between Trump's surrogates and 
intermediaries for the Russian government,'' close quote.
    I was taken aback by that explosive allegation, which he 
said was being reported as breaking news that very day and 
which I had not heard. I wanted to refute that immediately, any 
suggestion that I was part of such an activity.
    I replied, quote--I replied to Senator Franken this way, 
quote, ``Senator Franken, I'm not aware of any of those 
activities. I have been called a surrogate a time or two in 
that campaign, and I did not--didn't have--did not have 
communications with the Russians, and--and I'm unable to 
comment on it,'' close quote.
    That was the context in which I was asked the question. And 
in that context, my answer was a fair and correct response to 
the charge as I understood it. I was responding to this 
allegation that we had met--surrogates had been meeting with 
the Russians on a regular basis.
    It simply did not occur to me to go further than the 
context of the question and to list any conversations that I 
may have had with Russians in routine situations, as I had many 
routine meetings with other foreign officials.
    So please hear me now. And it was only in March, after my 
confirmation hearing, that a reporter asked my spokesperson 
whether I had ever met with any Russian officials. This was the 
first time that question had squarely been posed to me.
    On the same day, we provided that reporter with the 
information related to the meeting that I and my staff had held 
in my Senate office with Ambassador Kislyak, as well as the 
brief encounter in July after a speech that I had given during 
the convention in Cleveland, Ohio. I also provided the reporter 
with a list of 25 foreign ambassador meetings that I'd had 
during 2016. In addition, I provided supplemental testimony to 
the Senate Judiciary Committee to explain this event.
    So I readily acknowledged these two meetings and certainly 
not one thing happened that was improper in any one of those 
meetings.
    Let me also explain clearly the circumstances of my recusal 
from the investigation into the Russian interference with the 
2016 election. Please, colleagues, hear me on this.
    I was sworn in as Attorney General on Thursday, February 
9th. The very next day, as I had promised the Judiciary 
Committee I would do, at least at an early date, I met with 
career Department officials, including a senior ethics 
official, to discuss some things publicly reported in the press 
that might have some bearing on whether or not I should recuse 
myself in this case.
    From that point, February 10th, until I announced my formal 
recusal on March 2nd, I was never briefed on any investigative 
details, did not access any information about the 
investigation. I received only the limited information that the 
Department's career officials determined was necessary for me 
to form and make a recusal decision. As such, I have no 
knowledge about this investigation as it is ongoing today 
beyond what has been publicly reported. I don't even read that 
carefully. And I have taken no action whatsoever with regard to 
any such investigation.
    On the date of my formal recusal, my chief of staff sent an 
e-mail to the heads of relevant departments, including by name 
to Director Comey of the FBI, to instruct them to inform their 
staffs of this recusal and to advise them not to brief me or 
involve me in any way in any such matters. And in fact they 
have not.
    Importantly, I recused myself not because of any asserted 
wrongdoing or any belief that I may have been involved in any 
wrongdoing in the campaign, but because a Department of Justice 
regulation, 28 CFR 45.2, I felt required it. That regulation 
states in effect that Department employees should not 
participate in investigations of a campaign if they served as a 
campaign adviser.
    So the scope of my recusal, however, does not and cannot 
interfere with my ability to oversee the Department of Justice, 
including the FBI, which has an $8 billion budget and 35,000 
employees.
    I presented to the President my concerns and those of 
Deputy Attorney General Rod Rosenstein about the ongoing 
leadership issues at the FBI, as stated in my letter 
recommending the removal of Mr. Comey, along with the Deputy 
Attorney General's memorandum on that issue, which have been 
released publicly by the White House. Those represent a clear 
statement of my views. I adopted Deputy Attorney General 
Rosenstein's points that he made in his memorandum and made my 
recommendation.
    It is absurd, frankly, to suggest that a recusal from a 
single specific investigation would render the Attorney General 
unable to manage the leadership of the various Department of 
Justice law enforcement components that conduct thousands of 
investigations.
    Finally, during his testimony, Mr. Comey discussed a 
conversation that he and I had about the meeting Mr. Comey had 
with the President. I'm happy to share with the committee my 
recollection of that conversation that I had with Mr. Comey.
    Following a routine morning threat briefing, Mr. Comey 
spoke to me and my chief of staff. While he did not provide me 
with any of the substance of his conversation with the 
President, apparently the day before, Mr. Comey expressed 
concern about proper communications protocol with the White 
House and with the President.
    I responded--he didn't recall this, but--I responded to his 
comment by agreeing that the FBI and the Department of Justice 
needed to be careful to follow Department policies regarding 
appropriate contacts with the White House. Mr. Comey had served 
in the Department for better than two decades, and I was 
confident that he understood and would abide by the well-
established rules limiting communications with the White House, 
especially about ongoing investigations. That's what's so 
important to control.
    My comments encouraged him to do just that, and indeed, as 
I understand it, he in fact did that. Our Department of Justice 
rules on proper communications between the Department and the 
White House have been in place for years. Mr. Comey well knew 
them. I thought and assumed, correctly, that he complied with 
them.
    So I'll finish with this. I recused myself from any 
investigation into the campaign for President, but I did not 
recuse myself from defending my honor against scurrilous and 
false allegations. At all times throughout the course of the 
campaign, the confirmation process, and since becoming Attorney 
General, I have dedicated myself to the highest standards. I've 
earned a reputation for that at home and in this body, I 
believe, over decades of performance.
    The people of this country expect an honest and transparent 
government and that's what we're giving them. This President 
wants to focus on the people of this country, to ensure they 
are treated fairly and kept safe. The Trump agenda is to 
improve the lives of the American people. I know some have 
different ways of achieving this and different agendas, but 
that is his agenda and it's one I share.
    Importantly, as Attorney General I have a responsibility to 
enforce the laws of this Nation, to protect this country from 
its enemies, and to ensure the fair administration of justice. 
And I intend to work every day with our fine team and the 
superb professionals in the Department of Justice to advance 
the important work we have to do.
    These false attacks, the innuendoes, the leaks, you can be 
sure will not intimidate me. In fact, these events have only 
strengthened my resolve to fulfill my duty, my duty to reduce 
crime, to support our Federal, State and local law enforcement 
officers who work on our streets every day.
    Just last week, it was reported that overdose deaths in 
this country are rising faster than ever recorded. Last year 
was 52,000. The New York Times just estimated next year will be 
62,000 overdose deaths. The murder rate is up over 10 percent, 
the largest increase since 1968.
    Together, we are telling the gangs, the cartels, the 
fraudsters, and the terrorists, we are coming after you. Every 
one of our citizens, no matter who they are or where they live, 
has the right to be safe in their homes and communities. And I 
will not be deterred. I will not allow this great Department to 
be deterred from its vital mission.
    Thank you, Mr. Chairman, Ranking Member Warner. I have a 
great honor to appear before you today, and I will do my best 
to answer your questions.
    [The prepared statement of Attorney General Sessions 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Burr. General Sessions, thank you. Thank you for 
that testimony.
    I'd like to note for members, the Chair and the Vice 
Chairman will be recognized for 10 minutes, members will be 
recognized for 5 minutes. And I'd like to remind our members 
that we are in open session. No references to classified or 
committee sensitive materials should be used relative to your 
questions. With that, I recognize myself at this time for ten 
minutes.
    General Sessions, you talked about the Mayflower Hotel, 
where the President gave his first foreign policy speech, and 
it's been covered in the press that the President was there, 
you were there, others were there. From your testimony, you 
said you don't remember whether Ambassador Kislyak was there, 
the Russian ambassador. Is that correct?
    General Sessions. I did not remember that, but I understand 
he was there. And so I don't doubt that he was. I believe that 
representations are correct. In fact, I recently saw a video of 
him coming into the room.
    Chairman Burr. But you never remember having a conversation 
or a meeting with Ambassador Kislyak?
    General Sessions. I do not.
    Chairman Burr. And there was--in that event, was there ever 
a private room setting that you were involved in?
    General Sessions. No, other than the reception area that 
was shut off from, I guess, the main crowd of a couple of 
dozen, two to three dozen people.
    Chairman Burr. I would take for granted that at an event 
like this the President shook some hands.
    General Sessions. Yes, he came in and shook hands in the 
group.
    Chairman Burr. Okay. You mentioned that there were some 
staff that were with you at that event.
    General Sessions. My legislative director at the time----
    Chairman Burr. Your Senate staff?
    General Sessions. Senate legislative director, who was a 
retired U.S. Army colonel, who'd served on the Armed Services 
staff with Senator John Warner before she joined my staff, was 
with me in the reception area and throughout the rest of the 
events.
    Chairman Burr. Would you say that you were there as a 
United States Senator or as a surrogate of the campaign for 
this event?
    General Sessions. I came there as a interested person, very 
anxious to see how President Trump would do in his first major 
foreign policy address. I believe he'd only given one major 
speech before, that one maybe at the Jewish AIPAC event. So it 
was an interesting time for me to observe his delivery and the 
message he would make. That was my main purpose of being there.
    Chairman Burr. Now, you reported two other meetings with 
Ambassador Kislyak: one in July on the sidelines of the 
Republican Convention, I believe; and one in September in your 
Senate office. Have you had any other interactions with 
government officials over the year in a campaign capacity? I'm 
not asking you from the standpoint of your Senate life----
    General Sessions. Yeah. Yeah.
    Chairman Burr [continuing]. But in a campaign capacity.
    General Sessions. No, Mr. Chairman. I've stretched my--
racked my brain to make sure I could answer any of those 
questions correctly, and I did not.
    I would just offer for you that, when asked about whether I 
had any meetings with Russians by the reporter in March, we 
immediately recalled the conversation, the encounter I had at 
the convention and the meeting in my office, and made that 
public. I never intended not to include that. I would have 
gladly have reported the meeting, the encounter that may have 
occurred, that some say occurred, in the Mayflower, if I had 
remembered it, or if it actually occurred, which I don't 
remember that it did.
    Chairman Burr. General Sessions, on March 2nd, 2017, you 
formally recused yourself from any involvement in the Russian 
investigation being conducted by the FBI and the Department of 
Justice. What are the specific reasons that you chose to recuse 
yourself?
    General Sessions. Well, the specific reason, Mr. Chairman, 
is a CFR, a Code of Federal Regulations, put out by the 
Department of Justice, part of the Department of Justice rules. 
And it says this--I'll read from it: 28 CFR 45.2, ``Unless 
authorized, no employee shall participate in a criminal 
investigation or prosecution if he has a personal or political 
relationship with any person involved in the conduct of an 
investigation.'' It goes on to say in a political campaign. And 
it says, ``If you have a close identification with an elected 
official or a candidate arising from service as a principal 
adviser, you should not participate in an investigation of that 
campaign.''
    Chairman Burr. So would you----
    General Sessions. Many have suggested that my recusal is 
because I felt I was a subject of the investigation myself, 
that I may have done something wrong. But this is the reason I 
recused myself. I felt I was required to under the rules of the 
Department of Justice, and as the leader of the Department of 
Justice, I should comply with the rules, obviously.
    Chairman Burr. So did your legal counsel basically know 
from day one you would have to recuse yourself of this 
investigation because of the current statute?
    General Sessions. Well, I do have a timeline of what 
occurred. I was sworn in on the 9th, I believe, of February. I 
then on the 10th had my first meeting to generally discuss this 
issue, where the CFR was not discussed.
    We had several other meetings and it became clear to me 
over time that I qualified as a significant--a principal 
adviser type person to the campaign, and it was the appropriate 
and right thing for me----
    Chairman Burr. So this could----
    General Sessions [continuing]. To recuse myself.
    Chairman Burr [continuing]. This could explain Director 
Comey's comments that he knew that there was a likelihood you 
would recuse yourself, because he was probably familiar with 
the same statute?
    General Sessions. Well, I think probably so. I'm sure that 
the attorneys in the Department of Justice probably 
communicated with him, because, Mr. Chairman, let me say this 
to you clearly. In effect, as a matter of fact I recused myself 
that day. I never received any information about the campaign. 
I thought there was a problem with me being able to serve as 
Attorney General over this issue, and I felt I would possibly 
have to recuse myself, and I took the position, correctly I 
believe, not to involve myself in the campaign in any way, and 
I did not.
    Chairman Burr. You made a reference to your chief of staff 
sending out an e-mail immediately notifying internally of your 
decision to recuse. Would you ask your chief of staff to make 
that e-mail available?
    General Sessions. We would be pleased to do----
    Chairman Burr. Thank--thank you.
    General Sessions [continuing]. So and I think I have it 
with me now.
    Chairman Burr. Thank you, General Sessions.
    Have you had any interactions with the special counsel, 
Robert Mueller, since his appointment?
    General Sessions. I have not.
    With regard to the e-mail we sent out, Mr. Comey, Director 
Comey, indicated that he did not know when I recused myself or 
did not receive notice. One of those e-mails went to him by 
name. So a lot happens in our offices. I'm not accusing him of 
any wrongdoing, but in fact it was sent to him and to his name.
    Chairman Burr. Okay.
    General Sessions, as you said, Mr. Comey testified at 
length before the committee about his interactions with the 
President, in some cases highlighting your presence at those 
meetings. And you addressed the meeting where all were asked to 
leave except for Director Comey and he had a private meeting 
with the President. And you said that he did inform you of how 
uncomfortable that was, and your recommendation was that the 
FBI and DOJ needed to follow the rules limiting further 
correspondence.
    Did Director Comey ever express additional discomfort with 
conversations that the President might have had with him? 
Because he had two additional meetings and I think a total of 
six phone calls.
    General Sessions. That is correct. There's nothing wrong 
with the President having a communication with the FBI 
director. What is problematic for any Department of Justice 
employee is to talk to any Cabinet persons or White House 
officials, high officials, about ongoing investigations that 
are not properly cleared through the top levels of the 
Department of Justice.
    And so it was a--regulation I think is healthy. I thought 
we needed, and strongly believed, we needed to restore 
discipline within our Department, to adhere to just those kind 
of rules, plus leaking rules and some of the other things that 
I think are a bit lax and need to be restored.
    Chairman Burr. You couldn't have had a conversation with 
the President about the investigation, because you were never 
briefed on the investigation?
    General Sessions. That is correct.
    I would note that, with regard to the private meeting that 
Director Comey had--by his own admission, I believe there are 
as many as six such meetings. Several of them he had with 
President Trump. I think he had two with President Obama. So 
it's not improper per se. But it would not be justified for a 
Department official to share information about an ongoing 
investigation without prior review and clearance from above.
    Chairman Burr. General Sessions, just one last question. 
You were the chair of this foreign policy team for the Trump 
campaign. To the best your knowledge, did that team ever meet?
    General Sessions. We met a couple of times, maybe. Some of 
the people did. But we never functioned, frankly, Mr. Chairman, 
as a coherent team. We had various meetings----
    Chairman Burr. Were there any members--were there any 
members of that team you never met?
    General Sessions. Yes.
    Chairman Burr. Okay.
    Vice Chairman.
    Vice Chairman Warner. Thank you, General Sessions.
    As I mentioned in my opening statement, we appreciate your 
appearance here, but we do see this as the first step, and I 
would just like to get your commitment that you will agree to 
make yourself available as the committee needs in the weeks and 
months ahead.
    General Sessions. Senator Warner, I will commit to appear 
before this committee and other committees as appropriate. I 
don't think it's good policy to continually bring Cabinet 
members or the Attorney General before multiple committees, 
going over the same things over and over----
    Vice Chairman Warner. I know other members of the Judiciary 
Committee or Appropriations Committee may want----
    General Sessions. Well, they--I'm sure----
    Vice Chairman Warner [continuing]. To raise those issues. 
But let me just ask about this committee.
    General Sessions. I just gave you my answer, Mister----
    Vice Chairman Warner. Thank you.
    What about, can we also get your commitment, since there 
will be questions about some of these meetings that took place 
or not, that we could get access to documents or memoranda, 
your daybook or something, so we can----
    General Sessions. Mr. Vice Chairman, we will be glad to 
provide appropriate responses to your questions and review them 
carefully----
    Vice Chairman Warner. Thank you.
    General Sessions [continuing]. And try to be responsive.
    Vice Chairman Warner. Yesterday a friend of the President 
was reported suggesting that President Trump was considering 
removing Director Mueller as special counsel. Do you have 
confidence in Director Mueller's ability to conduct his 
investigation fairly and impartially?
    General Sessions. Well, first, I don't know about these 
reports, and have no basis to ascertain their----
    Vice Chairman Warner. But I'm asking you, sir--I'm asking--
do you----
    General Sessions [continuing]. Validity. I have known Mr. 
Mueller over the years. He served 12 years as FBI Director. I 
knew him before that. And I have confidence in Mr. Mueller.
    Vice Chairman Warner. So you have confidence he can do his 
job?
    General Sessions. But I am not going to discuss any 
hypotheticals or what might be a factual situation in the 
future that I'm not aware of today, because I know nothing 
about the investigation and----
    Vice Chairman Warner. Do you believe----
    General Sessions [continuing]. I fully recuse myself from--
--
    Vice Chairman Warner. I've got a series of questions, sir. 
Do you believe the President has confidence in Director 
Mueller?
    General Sessions. I have no idea. I've not talked to him 
about it.
    Vice Chairman Warner. Now, will you commit to this 
committee not to take any personal actions that might result in 
Director Mueller's firing or dismissal?
    General Sessions. Well, I think I probably could say that 
with confidence, because I'm recused from the investigation. In 
fact, the way it works, Senator Warner, is that the acting 
Attorney General----
    Vice Chairman Warner. I'm aware of the----
    General Sessions [continuing]. For this investigation----
    Vice Chairman Warner [continuing]. Process, but I just 
wanted to get you on the record that you would not----
    General Sessions [continuing]. Is Deputy Attorney General 
Rod Rosenstein----
    Vice Chairman Warner [continuing]. With your recusal, you 
would not take any actions to try to have Special Investigator 
Mueller removed.
    General Sessions. I wouldn't think that would be 
appropriate for me to do.
    Vice Chairman Warner. Yes, sir, I agree.
    To your knowledge, have any Department of Justice officials 
been involved with conversations about any possibility of 
presidential pardons about any of the individuals involved with 
the Russia investigation?
    General Sessions. Mr. Vice Chairman, I'm not able to 
comment on conversations with high officials within the White 
House. That would be a violation of the communications rule 
that I have to adhere to.
    Vice Chairman Warner. Just so I can understand, is the 
basis of that unwillingness to answer based on executive 
privilege, or what?
    General Sessions. it's a longstanding policy of the 
Department of Justice not to comment on conversations that the 
Attorney General has had with the President of the United 
States, for confidential reasons that really are founded in the 
coequal branch powers in the Constitution of the United States.
    Vice Chairman Warner. But that--but just so I'm 
understanding, does that mean, are you claiming executive 
privilege here today, sir?
    General Sessions. I'm not claiming executive privilege, 
because that's the President's power and I have no power to 
claim executive privilege.
    Vice Chairman Warner. What about--what about conversations 
with other Department of Justice or other White House officials 
about potential pardons, not the President, sir?
    General Sessions. Mr. Vice Chairman, without in any way 
suggesting that I have had any conversations concerning 
pardons, totally apart from that, there are privileges of 
communications within the Department of Justice that we share, 
all of us do. We have a right to have full and robust debate 
within the Department of Justice. We encourage people to speak 
up and argue cases on different sides. And those arguments are 
not----
    Vice Chairman Warner. I would hope, though----
    General Sessions [continuing]. To be revealed. 
Historically, we've seen that they shouldn't be revealed.
    Vice Chairman Warner [continuing]. I would hope that you 
would agree that, since you've recused yourself from this 
investigation, that if the President or others would pardon 
someone during the midst of this investigation, our 
investigation or Director Mueller's investigation, that would 
be, I would think, problematic.
    One of the comments you made in your testimony was that 
you'd reached this conclusion about the performance of then-
Director Comey's ability to lead the FBI, that you agreed with 
Deputy Attorney General Rosenstein's memo. The fact that you'd 
worked with Director Comey for some time--did you ever have a 
conversation as a superior of Director Comey with his failure 
to perform or some of these accusations that he wasn't running 
the FBI in a good way, or that somehow the FBI was--is in 
turmoil? Did you have any conversations with Director Comey 
about those subjects?
    General Sessions. I did not.
    Vice Chairman Warner. So you were his superior, and there 
were some fairly harsh things said about Director Comey. You 
never thought it was appropriate to raise those concerns before 
he was actually terminated by the President?
    General Sessions. I did not do so. A memorandum was 
prepared by the Deputy Attorney General, who evaluated his 
performance and noted some serious problems with it. One of----
    Vice Chairman Warner. And you agreed with those 
evaluations?
    General Sessions. I agreed with those. In fact, Senator 
Warner, we had talked about it even before I was confirmed and 
before he was confirmed. It's something that we both agreed to, 
that a fresh start at the FBI was probably the best----
    Vice Chairman Warner. It just again seems a little--I could 
understand if you talked about that before you came on, you had 
a chance for a fresh start. There was no fresh start. Suddenly, 
we're in the midst of the investigation, and with timing that 
seems a little peculiar, what kind of at least to me was out of 
the blue, the President fires the FBI director. And if there 
are all these problems of disarray and a lack of esprit de 
corps at the FBI, all things that the acting director of the 
FBI denied is the case, I would have thought that somebody 
would have had that kind of conversation with Director Comey. 
He was at least owed that.
    Let's go to the May--or the April 27th meeting. As has been 
brought up, and I think the Chairman brought it up, by the time 
April 27th came around you'd already been named as the chair of 
then-candidate Trump's national security advisor. So showing up 
at that meeting would be appropriate, not only----
    General Sessions. That was the Mayflower Hotel?
    Vice Chairman Warner. Yes, sir. Yes, sir.
    My understanding was that the President's son-in-law, Jared 
Kushner was at that, was at that meeting as well?
    General Sessions. I believe he was, yes.
    Vice Chairman Warner. You don't recollect whether Mr. 
Kushner had any conversations with Ambassador Kislyak at that 
session?
    General Sessions. I do not.
    Vice Chairman Warner. And to the best of your memory, you 
had no conversation with Ambassador Kislyak at that meeting?
    General Sessions. I don't recall it, Senator Warner. It 
would've been certainly, I can assure you, nothing improper, if 
I'd had a conversation with him. And it's conceivable that 
occurred. I just don't remember it.
    Vice Chairman Warner. But there was nothing in your notes 
or memory so that, when you had a chance--and you did, and I 
appreciate--correct the record about the other two sessions in 
response to Senator Franken and Senator Leahy, this one didn't 
pop into your memory that maybe in the overabundance of caution 
that you ought to report that, this session as well?
    General Sessions. Well, I guess I could say that I possibly 
had a meeting, but I still do not recall it. And I did not in 
any way fail to record something in my testimony or in my 
subsequent letter, intentionally false.
    Vice Chairman Warner. I understand that, sir. I'm just 
trying to understand. When you corrected the record, and 
clearly by the time you had a chance to correct the record I 
would've thought that you would've known that Ambassador 
Kislyak was at that April 27th session. It received some quite 
a bit of press notoriety.
    And again, echoing what the Chairman has said, just again 
for the record, there was no other meeting with any other 
officials of the Russian government during the campaign season?
    General Sessions. Not to my recollection. And I would just 
say, with regard to the two encounters, one at the Mayflower 
Hotel that you referred to----
    Vice Chairman Warner. Yes, sir.
    General Sessions [continuing]. I came there not knowing he 
was going to be there. I don't have any recollection of even 
knowing he would be there. I didn't have any communications 
with him before or after that event.
    And likewise, at the event at the convention, I went off 
the convention grounds to a college campus for an event that 
had been set up----
    Vice Chairman Warner. But at the Mayflower, at the 
Mayflower event----
    General Sessions. Let me just follow this up on that one. I 
didn't know he would be in the audience and had no----
    Vice Chairman Warner. But at the Mayflower----
    General Sessions. Okay.
    Vice Chairman Warner [continuing]. There was this, I guess, 
kind of VIP reception first, and then people went in to the 
speech. Is that--just so I get a----
    General Sessions. That's my impression. That's my 
recollection.
    Vice Chairman Warner. And you were part of the VIP 
reception?
    General Sessions. Yes.
    Vice Chairman Warner. Yes, sir.
    General Sessions, one of the again troubling things that I 
need to sort through is, Mr. Comey's testimony last week was 
that he felt uncomfortable when the President asked everyone 
else to leave the room. He left the impression that you 
lingered, with perhaps a sense that you felt uncomfortable 
about it as well. I'm going to allow you to, obviously, answer 
and correct if that's not the right impression.
    After this meeting took place, which clearly Director Comey 
felt had some level of uncomfortableness, you never asked 
Director Comey what took place in that meeting?
    General Sessions. Well, I would just say it this way. We 
were there, I was standing there, and, without revealing any 
conversation that took place, what I do recall is that I did 
depart, I believe everyone else did depart, and Director Comey 
was sitting in front of the President's desk and they were 
talking. So that's what I do remember.
    I believe it was the next day that he said something, 
expressed concern about being left alone with the President. 
But that in itself is not problematic. He did not tell me at 
that time any details about anything that was said that was 
improper.
    I affirmed his concern that we should be following the 
proper guidelines of the Department of Justice and basically 
backed him up in his concerns and that he should not carry on 
any conversation with the President or anyone else about an 
investigation in a way that was not proper.
    I felt he, so long in the Department, former Deputy 
Attorney General, as I recall, knew those policies probably a 
good deal better than I did.
    Vice Chairman Warner. Thank you, sir.
    And I thank you, Mr. Chairman. But it did appear that Mr. 
Comey felt that the conversation was improper?
    General Sessions. He was concerned about it. And his 
recollection of what he said to me about his concern is 
consistent with my recollection.
    Chairman Burr. Senator Risch.
    Senator Risch. Attorney General Sessions, good to hear you 
talk about how important this Russian interference and active 
measures in our campaign is. I don't think there's any American 
who would disagree with the fact that we need to drill down to 
this, know what happened, get it out in front of the American 
people, and do what we can to stop it. Again, and that's what 
this committee was charged to do, and that's what this 
committee started to do.
    As you probably know, on February 14th the New York Times 
published an article alleging that there was constant 
communications between the Trump campaign and the Russians in 
collusion regarding the elections. Do you recall that, that 
article when it came out?
    General Sessions. Not exactly.
    Senator Risch. Generally?
    General Sessions. But I was--generally, I remember those 
charges.
    Senator Risch. And Mr. Comey told us when he was here last 
week that he had a very specific recollection. In fact, he 
chased it down through the intelligence community and was not 
able to find a scintilla of evidence to that effect. Then, he 
sought out both Republicans and Democrats up here to tell them 
that this was false, that there was no such facts anywhere--
that corroborated what the New York Times had reported.
    Nonetheless, after that this committee took that on as one 
of the things that we've spent really substantially more time 
on that than we have on the Russian active measures. We've been 
through thousands of pages of information, interviewed 
witnesses and everything else.
    We're no--really no different than where we were when this 
whole thing started. And there's been no reports that I know of 
of any factual information in that regard. Are you aware of any 
such information of collusion?
    General Sessions. Did that arise from the dossier, so-
called dossier, Senator Risch? Is that what you're referring 
to?
    Senator Risch. Well, anywhere.
    General Sessions. I believe that's the report that Senator 
Franken hit me with when I was testifying, and I think it has 
been pretty substantially discredited. But you would know more 
than I. But what was said that would suggest I participated in 
continuing communications with Russians as a surrogate is 
absolutely false.
    Senator Risch. Mr. Sessions, there's been all this talk 
about conversations and that you had some conversations with 
the Russians. For Senators up here who are on either Foreign 
Relations, Intelligence, or Armed Services, conversations with 
officers of other governments or ambassadors or what have you 
are everyday occurrences here, multiple-time occurrences, for 
most of us. Is that a fair statement?
    General Sessions. I think it is, yes.
    Senator Risch. And, indeed, if you run into one in a 
grocery store, you're going to have a conversation with them. 
Is that fair?
    General Sessions. Could very well happen. Nothing improper.
    Senator Risch. All right. On the other hand, collusion with 
the Russians, or any other government, for that matter, when it 
comes to our elections certainly would be improper and illegal. 
Would that be a fair statement?
    General Sessions. Absolutely.
    Senator Risch. All right. Are you willing to sit here and 
tell the American people, unfiltered by what the media's going 
to put out, that you participated in no conversations of any 
kind where there was collusion between the Trump campaign and 
any other foreign government?
    General Sessions. I can say that absolutely and I have no 
hesitation to do so.
    Senator Risch. Mr. Sessions, you're a former U.S. attorney, 
former United States Senator and the Attorney General of the 
United States. You participated, as you've described, in the 
Trump campaign. And, as such, you traveled with the campaign, I 
gather?
    General Sessions. I did.
    Senator Risch. You spoke for the campaign, at times?
    General Sessions. Well, on a number of occasions. I was not 
continually on the----
    Senator Risch. Based upon your experience and based upon 
your participation in the campaign, did you hear even a whisper 
or a suggestion or anyone making reference within that campaign 
that somehow the Russians were involved in that campaign?
    General Sessions. I did not. No one ever----
    Senator Risch. What would you have done if you'd have heard 
that?
    General Sessions. Well, I would've been shocked and I 
would've known it was improper.
    Senator Risch. And headed for the exit, I suppose?
    General Sessions. Well, maybe.
    Senator Risch. All right.
    General Sessions. So this was, you know, a serious--this is 
a serious matter, because what you're talking about, hacking 
into a private person or the DNC computer and obtaining 
information and spreading that out, that's just not right. And 
I believe it's likely that laws were violated if that actually 
occurred. So it's an improper thing.
    Senator Risch. Mr. Sessions, has any person from the White 
House or the Administration, including the President of the 
United States, either directed you or asked you to do any 
unlawful or illegal act since you've been Attorney General of 
the United States?
    General Sessions. No, Senator Risch, they've not.
    Senator Risch. Thank you, Mr. Chairman.
    Chairman Burr. Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    Welcome, Attorney General.
    General Sessions. Thank you.
    Senator Feinstein. On May 19th, Mr. Rosenstein, in a 
statement to the House of Representatives, essentially told 
them that he learned on May 8th that President Trump intended 
to remove Director Comey.
    When you wrote your letter on May 9, did you know that the 
President had already decided to fire Director Comey?
    General Sessions. Senator Feinstein, I would say that I 
believe it's been made public that the President asked us our 
opinion, it was given, and he asked us to put that in writing. 
And I don't know how much more he said about it than that, but 
I believe he has talked about it. And I would let his words 
speak for themselves.
    Senator Feinstein. Well, on May 11th on NBC Nightly News, 
two days later, the President stated he was going to fire Comey 
regardless of the recommendation. So I'm puzzled about the 
recommendation, because the decision had been made. So what was 
the need for you to write a recommendation?
    General Sessions. Well, we were asked our opinion and when 
we expressed it, which was consistent with the memorandum and 
the letter we wrote, I felt comfortable, and I guess the Deputy 
Attorney General did too,--in providing that information in 
writing.
    Senator Feinstein. So do you concur with the President that 
he was going to fire Comey regardless of recommendation, 
because the problem was the Russian investigation?
    General Sessions. Senator Feinstein, I guess I'll just have 
to let his words speak for himself. I'm not sure what was in 
his mind explicitly when we talked with him.
    Senator Feinstein. Did you ever discuss Director Comey's 
FBI handling of the Russia investigations with the President or 
anyone else?
    General Sessions. Senator Feinstein, that would call for a 
communication between the Attorney General and the President 
and I'm not able to comment on that.
    Senator Feinstein. You are not able to answer the question 
here, whether you ever discussed that with him?
    General Sessions. That's correct.
    Senator Feinstein. And how do you view that--since you 
discussed his termination, why wouldn't you discuss the 
reasons?
    General Sessions. Well, those were put in writing and sent 
to the President, and he made those public, so he made that 
public, not----
    Senator Feinstein. So you'd had no verbal conversation with 
him----
    General Sessions. Well----
    Senator Feinstein [continuing]. About the firing of Mr. 
Comey?
    General Sessions [continuing]. I'm not able to discuss with 
you or confirm or deny the nature of private conversations that 
I may have had with the President on this subject or others. 
And I know that--how this will be discussed, but that's the 
rule that has been long adhered to----
    Senator Feinstein. You know, others----
    General Sessions [continuing]. By the Department of 
Justice, as you know, Senator Feinstein.
    Senator Feinstein. You're a long-time colleague, but we 
heard Mr. Coats and we heard Admiral Rogers say essentially the 
same thing, when it was easy just to say, if the answer was no, 
no.
    General Sessions. Well, it would've been easier to say, if 
it was yes, yes. But both would have been improper.
    Senator Feinstein. Okay.
    So how exactly were you involved in the termination of 
Director Comey? Because I am looking at your letter dated May 9 
and you say, ``The Director of the FBI must be someone who 
follows faithfully the rules and principles, who sets the right 
example for law enforcement officials. Therefore, I must 
recommend that you remove Director Comey and identify an 
experienced and qualified individual to lead the great men and 
women of the FBI.''
    Do you really believe that this had to do with Director 
Comey's performance with the men and women of the FBI?
    General Sessions. There was a clear view of mine and of 
Deputy Attorney General Rosenstein, as he set out at some 
length in his memoranda, which I adopted and sent forward to 
the President, that we had problems there. And it was my best 
judgment that a fresh start at the FBI was the appropriate 
thing to do. And when asked, I said that to the President. It's 
something I had adhered to.
    Deputy Rosenstein's letter dealt with a number of things. 
When Mr. Comey declined the Clinton prosecution, that was 
really a usurpation of the authority of the Federal prosecutors 
in the Department of Justice. It was a stunning development. 
The FBI is the investigative team. They don't decide 
prosecution policies. And so that was a thunderous thing.
    He also commented at some length on the declination of the 
Clinton prosecution, which you should not normally--you 
shouldn't do. Policies have been historic: If you decline, you 
decline, and you don't talk about it.
    There were other things that had happened that indicated to 
me a lack of discipline and had caused controversy on both 
sides of the aisle, and I had come to the conclusion that a 
fresh start was appropriate and did not mind putting that in 
writing.
    Senator Feinstein. My time is up. Thank you very much.
    General Sessions. Thank you.
    Chairman Burr. Senator Rubio.
    Senator Rubio. Thank you.
    Thank you for being here, Attorney General.
    I want to go back to February 14th and kind of close the 
loop on the details. Director Comey was here and provided great 
detail about that day. So what I've heard so far is there was a 
meeting in the Oval Office on the 14th. You recall being there 
along with him. At some point, the meeting concluded. The 
President--everyone got up to leave--the President asked 
Director Comey to stay behind. Correct?
    General Sessions. Well, that's a communication in the White 
House that I would not comment on----
    Senator Rubio. All right.
    General Sessions. I do----
    Senator Rubio. You remember seeing him stay behind?
    General Sessions. Yes.
    Senator Rubio. Okay. And his testimony was that you 
lingered, and his view of it was you lingered because you knew 
that you needed to say. That was his characterization. Do you 
remember lingering? Do you remember feeling like you needed to 
say?
    General Sessions. I do recall being one of the last ones to 
leave, yes.
    Senator Rubio. Did you decide to be one of the last ones to 
leave?
    General Sessions. I don't know how that occurred. We had 
finished a--I think a terrorism--counterterrorism briefing 
there. A number of people were there and people were filtering 
out. And I eventually left, and I do recall that I think I was 
the last or one of the last two or three to leave.
    Senator Rubio. Would it be fair to say that you felt like 
perhaps you needed to stay because it involved the FBI 
Director?
    General Sessions. Well, I don't know how I would 
characterize that, Senator Rubio. I left. It didn't seem to me 
to be a major problem. I knew that Director Comey, long-time 
experienced in the Department of Justice, could handle himself 
well.
    Senator Rubio. So you saw him after that. He characterized 
it as he went up to you and said, you know, never leave me 
alone with the President again, it's not appropriate. And he 
said--this is his characterization--you just kind of shrugged, 
like as if to say, ``what am I supposed to do about it?''
    General Sessions. Well, I think I described it more 
completely, correctly. He raised that issue with me, I believe, 
the next day. I think that was correct. And he expressed 
concern to me about that private conversation.
    And I agreed with him, essentially, that there are rules on 
private conversations with the President. But there's not a 
prohibition on a private discussion with the President, as I 
believe he's acknowledged six or more himself with President 
Obama and President Trump. So I didn't feel like that's a--and 
he gave me no detail about what it was that he was concerned 
about.
    Senator Rubio. So what----
    General Sessions. And so I didn't say I wouldn't be able to 
respond if he called me. He certainly knew that he could call 
his direct supervisor, which in the Department of Justice the 
direct supervisor to the FBI is the Deputy Attorney General. He 
could've complained to the deputy or to me at any time if he 
felt pressured, but I had no doubt that he would not yield to 
any pressure.
    Senator Rubio. Do you know if the President records 
conversations in the Oval Office or anywhere in the White 
House?
    General Sessions. I do not.
    Senator Rubio. Let me ask you this: if in fact any 
President were to record conversations in their official duties 
in the White House or the like, would there be an obligation to 
preserve those records?
    General Sessions. I don't know, Senator Rubio. Probably so.
    Senator Rubio. I want to go to the campaign for a moment. 
As I'm sure you're aware and it's been widely reported, Russian 
intelligence agencies often pose not simply as an official, but 
in covers as businessmen, a journalist, and the like. At any 
point during the campaign, did you have an interaction with 
anyone who, in hindsight, you look back and say, ``they were 
trying to influence me or gain insight,'' that in hindsight, 
you look at and wonder?
    General Sessions. I don't believe, in my conversations with 
the--three times----
    Senator Rubio. Not that. Just in general.
    General Sessions. No--well, I met with a lot of people, a 
lot of foreign officials, who wanted to argue their case for 
their country and to point out things that they thought were 
important for their countries.
    Senator Rubio. But it never----
    General Sessions. That's a normal thing I guess we talk 
about.
    Senator Rubio. Right, but as far as someone who's not an 
official from another country, just a businessman or anyone 
walking down the street who kind of struck you as someone that 
was trying to find out what you were up to or what with the 
campaign was up to, you never remember any sort of interaction 
that in hindsight appears suspicious?
    General Sessions. Well, I'd have to rack my brain, but I 
don't recall it now.
    Senator Rubio. My last question: you were on the foreign 
policy team. The platform, the Republican platform, was changed 
to not provide defensive weapons to Ukraine. Were you involved 
in that decision? Do you know how that change was made, or who 
was involved in making that change?
    General Sessions. I was not active in the platform 
committee, did not participate in that, and don't think I had 
any direct involvement in that.
    Senator Rubio. Do you know who did? Or do you have no 
recollection of a debate about that issue internally in the 
campaign?
    General Sessions. I never watched the debate, if it 
occurred, on the platform committee. I think it did. So I don't 
recall that, Senator Rubio. I'd have to think about that.
    Senator Rubio. Thank you.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you very much, Mr. Chairman. Mr. 
Chairman, I want to thank you for holding this hearing in the 
open, in full view of the American people, where it belongs. I 
believe the American people have had it with stonewalling. 
Americans don't want to hear that answers to relevant questions 
are privileged and off limits, or that they can't be provided 
in public, or that it would be, quote, ``inappropriate'' for 
witnesses to tell us what they know.
    We are talking about an attack on our democratic 
institutions and stonewalling of any kind is unacceptable. And 
General Sessions has acknowledged that there is no legal basis 
for this stonewalling.
    So now to questions. Last Thursday, I asked former Director 
Comey about the FBI's interactions with you, General Sessions, 
prior to your stepping aside from the Russian investigation. 
Mr. Comey said that your continued engagement with the Russian 
investigation was, quote, ``problematic,'' and he, Mr. Comey, 
could not discuss it in public. Mr. Comey also said that FBI 
personnel had been calling for you to step aside from the 
investigation at least two weeks before you finally did so.
    Now, in your prepared statement you stated you received 
only, quote, ``limited information necessary to inform your 
recusal decision.'' But, given Director Comey's statement, we 
need to know what that was.
    Were you aware of any concerns at the FBI or elsewhere in 
government about your contacts with the Russians or any other 
matters relevant to whether you should step aside from the 
Russian investigation?
    General Sessions. Senator Wyden, I am not stonewalling. I 
am following the historic policies of the Department of 
Justice. You don't walk into any hearing or committee meeting 
and reveal confidential communications with the President of 
the United States, who's entitled to receive confidential 
communications in your best judgment about a host of issues, 
and have to be accused of stonewalling for not answering them. 
So I would push back on that.
    Secondly, Mr. Comey, perhaps he didn't know, but I 
basically recused myself the day, the first day I got into the 
office, because I never accessed files, I never learned the 
names of investigators, I never met with them, I never asked 
for any documentation. The documentation, what little I 
received, was mostly already in the media and was presented by 
the senior ethics-professional responsibility attorney in the 
Department.
    Senator Wyden. General----
    General Sessions. And I made an honest and proper decision 
to recuse myself, as I told Senator Feinstein and the members 
of the committee I would do when they confirmed me.
    Senator Wyden. General Sessions, respectfully, you're not 
answering the question.
    General Sessions. Well, what is the question?
    Senator Wyden. The question is, Mr. Comey said that there 
were matters with respect to the recusal that were problematic 
and he couldn't talk about them. What are they?
    General Sessions. Why don't you tell me? There are none, 
Senator Wyden. There are none. I can tell you that for absolute 
certainty.
    Senator Wyden. We can--we can----
    General Sessions. You tell--this is a secret innuendo being 
leaked out there about me, and I don't appreciate it. And I've 
tried to give my best and truthful answers to any committee 
I've appeared before, and it's really a--people are suggesting 
through innuendo that I have been not honest about matters, and 
I've tried to be honest.
    Senator Wyden. My time is short. You've made your point 
that you think Mr. Comey is engaging in innuendo. We're going 
to keep digging on this----
    General Sessions. Well, Senator Wyden, he did not say that. 
I don't----
    Senator Wyden. You said it was problematic, and I asked you 
what was problematic about it.
    General Sessions. Some of that leaked out of the committee 
that he said in closed sessions.
    Senator Wyden. Okay.
    One more question. I asked former FBI Director whether your 
role in firing him violated your recusal, given that President 
Trump said he had fired Comey because of the Russian 
investigation. Director Comey said this was a reasonable 
question.
    So I want to ask you just point blank: Why did you sign the 
letter recommending the firing of Director Comey when it 
violated your recusal?
    General Sessions. It did not violate my recusal. It did not 
violate my recusal. That would be the answer to that. And the 
letter that I signed represented my views that had been 
formulated for some time.
    Senator Wyden. Mr. Chairman, just if I can finish.
    That answer in my view doesn't pass the smell test. The 
President tweeted repeatedly about his anger at investigations 
into his associates and Russia. The day before you wrote your 
letter, he tweeted that the collusion story was a total hoax 
and asked ``When will this taxpayer-funded charade end?'' I 
don't think your answer passes the smell test.
    General Sessions. Well, Senator Wyden, I think I should be 
allowed to briefly respond at least and would say the letter, 
the memorandum that Deputy Rosenstein wrote and my letter that 
accompanied it represented my views of the situation.
    Senator Wyden. I'll ask that on the second round.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Attorney General Sessions, I want to clarify who did what 
with regard to the firing of Mr. Comey. First of all, let me 
ask you, when did you have your first conversation with Rod 
Rosenstein about Mr. Comey?
    General Sessions. We talked about it before either one of 
us were confirmed. It was a topic of, you know, conversation 
among people who'd served in the Department a long time. They 
knew that what had happened that fall was pretty dramatically 
unusual. Many people felt it was very wrong. And so it was in 
that context that we discussed it and we both found that we 
shared a common view that a fresh start would be appropriate.
    Senator Collins. And this was based on Mr. Comey's handling 
of the investigation involving Hillary Clinton in which you 
said that he usurped the authority of prosecutors at the 
Department of Justice?
    General Sessions. Yes, that was part of it; and the 
commenting on the investigation in ways that go beyond the 
proper policies. We needed to restore, Senator Collins, I think 
the classic discipline in the Department. My team, we've 
discussed this. There's been too much leaking and too much 
talking publicly about investigations.
    In the long run, the Department's historic rule that you 
remain mum about ongoing investigations is the better policy.
    Senator Collins. Now, subsequently the President asked for 
you to put your views in writing, you've testified today. And I 
believe that you were right to recuse yourself from the ongoing 
Russian investigation.
    But then on May 9th you wrote to the President recommending 
that Mr. Comey be dismissed, and obviously this went back many 
months to the earlier conversations you had with Mr. 
Rosenstein. But my question is, why do you believe that your 
recommendation to fire Director Comey was not inconsistent with 
your March 2nd recusal?
    General Sessions. Thank you. The recusal involved one case 
involved in the Department of Justice and in the FBI. They 
conduct thousands of investigations. I'm the Attorney General 
of the United States. It's my responsibility to our Judiciary 
Committee and other committees to ensure that Department is run 
properly. I have to make difficult decisions, and I do not 
believe that it is a sound position to say that if you're 
recused for a single case involving any one of the great 
agencies, like DEA or U.S. Marshals or ATF that are part of the 
Department of Justice, you can't make a decision about the 
leadership in that agency.
    Senator Collins. Now, if you had known that the President 
subsequently was going to go on TV and in an interview with 
Lester Holt of NBC, would say that this Russian thing was the 
reason for his decision to dismiss the FBI Director, would you 
have felt uncomfortable about the timing of the decision?
    General Sessions. Well, I would just say this, Senator 
Collins. I don't think it's appropriate to deal with those kind 
of hypotheticals. I have to deal in actual issues. And I would 
respectfully not comment on that.
    Senator Collins. Well, let me ask you this: In retrospect, 
do you believe that it would have been better for you to have 
stayed out of the decision to fire Director Comey?
    General Sessions. I think it's my responsibility. I mean, I 
was appointed to be Attorney General. Supervising all the 
Federal agencies is my responsibility. Trying to get the very 
best people in those agencies at the top of them is my 
responsibility, and I think I had a duty to do so.
    Senator Collins. Now, Director Comey testified that he was 
not comfortable telling you about his one-on-one conversation 
with the President on February 14th because he believed that 
you would shortly recuse yourself from the Russian 
investigation, which you did. Yet Director Comey testified that 
he told no one else at the Department outside of the senior 
leadership team at the FBI.
    Do you believe that the Director had an obligation to bring 
the information about the President saying that he hoped he 
could let Michael Flynn go to someone else at the Department of 
Justice? There are an awful lot of lawyers at the Department of 
Justice, some 10,000 by last count.
    General Sessions. I think the appropriate thing would've 
been for Director Comey to talk with the Acting Deputy Attorney 
General, who is his direct supervisor. That was Dana Boente, 
who had 33 years in the Department of Justice, and was even 
then still serving for six years, and continues to serve, as 
U.S. attorney appointed by President Obama. So he's a man of 
great integrity and everybody knows it, a man of decency and 
judgment. If he had concerns, I think he should've raised it to 
Deputy Attorney General Boente, who would be the appropriate 
person in any case, really. But if he had any concern that I 
might be recusing myself, that would be a double reason for him 
to share it with Deputy Attorney General Boente.
    Senator Collins. Thank you.
    Chairman Burr. Senator Heinrich.
    Senator Heinrich. Attorney General Sessions, has the 
President ever expressed his frustration to you regarding your 
decision to recuse yourself?
    General Sessions. Senator Heinrich, I'm not able to share 
with this committee private communications----
    Senator Heinrich. Because you're invoking executive 
privilege?
    General Sessions. I'm not able to invoke executive 
privilege. That's the President's prerogative.
    Senator Heinrich. Well, my understanding is that you took 
an oath, you raised your right hand here today, and you said 
that you would solemnly swear to tell the truth, the whole 
truth, and nothing but the truth. And now you're not answering 
questions. You're impeding this investigation. So my 
understanding of the legal standard is that you either answer 
the question--that's the best outcome--you say, this is 
classified, can't answer it here, I'll answer it in closed 
session. That's bucket number two.
    Bucket number three is to say, I'm invoking executive 
privilege. There is no appropriateness bucket. It is not a 
legal standard.
    Can you tell me what are these longstanding DOJ rules that 
protect conversations made in the executive without invoking 
executive privilege?
    General Sessions. Senator, I'm protecting the President's 
constitutional right by not giving it away before he has a 
chance to view it----
    Senator Heinrich. You're having it both ways.
    General Sessions [continuing]. And secondly, I am telling 
the truth and answering your question in saying it's a 
longstanding policy of the Department of Justice----
    Senator Heinrich. Are those policies written?
    General Sessions [continuing]. To make sure the President 
has full opportunity to decide these issues.
    Senator Heinrich. Can you share those policies with us? Are 
they written down at the Department of Justice?
    General Sessions. I believe they are. Certainly----
    Senator Heinrich. This is the appropriateness legal 
standard for not answering Congressional inquiries?
    General Sessions. It's my judgment that it would be 
inappropriate for me to answer and reveal private conversations 
with the President when he has not had a full opportunity to 
review the questions and to make a decision on whether or not 
to approve such an answer, one.
    There are also other privileges that could be invoked. One 
of the things deals with can the investigation of the special 
counsel as----
    Senator Heinrich. We're not asking questions about that 
investigation. If I wanted to ask questions about that 
investigation, I'd ask those of Rod Rosenstein. I'm asking 
about your personal knowledge from this committee, which has a 
constitutional obligation to get to the bottom of this.
    There are two investigations here. There is a special 
counsel investigation. There is also a Congressional 
investigation, and you are obstructing that Congressional 
investigation by not answering these questions. And I think 
your silence, like the silence of Director Coats, like the 
silence of Admiral Rogers, speaks volumes.
    General Sessions. I would say that I have consulted with 
senior career attorneys in the Department----
    Senator Heinrich. I suspect you have.
    General Sessions [continuing]. And they believe this is 
consistent with my duties.
    Senator Heinrich. Senator Risch asked you a question about 
appropriateness, if you had known that there had been anything 
untoward with regard to Russia and the campaign would you have 
headed for the exits. Your response was: Maybe. Why wasn't it a 
simple yes?
    General Sessions. Well, if there was an improper, illegal 
relationship in an effort to impede or influence this campaign, 
I absolutely would have departed.
    Senator Heinrich. I think that's a good answer. I'm not 
sure why it wasn't the answer in the first place.
    General Sessions. I thought I did answer it.
    Senator Heinrich. I find it strange that neither you nor 
Deputy Attorney General Rod Rosenstein brought up performance 
issues with Director Comey. And in fact, Deputy FBI Director 
McCabe has directly refuted any assertion that there were 
performance issues. This is troubling because it appears that 
the President decided to fire Director Comey because he was 
pursuing the Russia investigation and had asked you to come up 
with an excuse.
    When your assessment of Director Comey didn't hold up to 
public scrutiny, the President finally admitted that he had 
fired Director Comey because he was pursuing the Russia 
investigation, i.e., the Lester Holt interview.
    You've claimed that you did not break recusal when 
participating in Director Comey's firing, but it appears that 
his firing was directly related to Russia, not departmental 
mismanagement. How do you square those two things?
    General Sessions. Well, you had a lot in that question. Let 
me say first, within a week or so, I believe May 3rd, Director 
Comey testified that he believed the handling of the Clinton 
declination was proper and appropriate and he would do it 
again.
    I know that was a great concern to both of us, because that 
represented something that I think most professionals in the 
Department of Justice would totally agree that the FBI 
investigative agency does not decide whether to prosecute or 
decline criminal cases; a pretty breathtaking usurpation of the 
responsibility of the Attorney General.
    So that's how we felt. That was sort of an additional 
concern, that we had heading the FBI, someone who boldly 
asserted the right to continue to make such decisions.
    That was one of the things we discussed. That was in the 
memorandum, I believe, and it was also an important factor for 
us.
    Chairman Burr. Before I recognize Senator Blunt, I would 
like the record to show that last night Admiral Rogers spent 
almost two hours in closed session with almost the full 
committee, fulfilling his commitment to us in the hearing that 
in closed session he would answer the question. And I think it 
was thoroughly answered, and all members were given an 
opportunity to ask questions. I just want the record to show 
that with what Senator Heinrich stated.
    Senator Blunt.
    Senator Blunt. Thank you Chairman.
    Attorney General, it's good to see you here. It's good to 
see Mary. I know that there's probably other places you'd both 
rather be today, but you've always looked at public service as 
something you did together, and it's good to see you here 
together and know that your family continues to be proud and 
supportive of what you do.
    General Sessions. Thank you. I've been blessed indeed.
    Senator Blunt. I agree with that. I agree with that.
    Let me just get a couple of things clear in my mind here of 
notes I have taken while people were asking questions and you 
were talking. On the April 27th, 2016, event--I think that's 
the Mayflower Hotel speech that President--that the 
presidential candidate gave on foreign policy, you didn't have 
a room at that event where you had private meetings, did you?
    General Sessions. No, I did not.
    Senator Blunt. And as I understand it, you went to a 
reception that was attended by how many people?
    General Sessions. I think two to three dozen.
    Senator Blunt. Two to three dozen people. You went in, 
heard his speech, and then may have seen people on your way 
out?
    General Sessions. Correct.
    Senator Blunt. So when you said you possibly had a meeting 
with Mr. Kislyak, did you mean you possibly met him?
    General Sessions. I didn't have any formal meeting----
    Senator Blunt. As opposed--I would assume the meeting----
    General Sessions [continuing]. With him, I'm confident of 
that. But I may have had an encounter during the reception. 
That's the only thing; I cannot say with certainty I did not. 
That's all I can say.
    Senator Blunt. Well, that's what I thought you were saying 
but sometimes when I hear ``I had a meeting'' that would mean 
more to me than ``I met somebody.''
    [Laughter.]
    General Sessions. Right, right.
    Senator Blunt. You might have met him at the reception. 
Could you have met other ambassadors at that reception as well?
    General Sessions. I could. I remember one in particular 
that we had a conversation with, whose country had an 
investment in Alabama, and we talked at a little length about 
that. I remember that. But otherwise, I have no recollection of 
a discussion with the Russian ambassador.
    Senator Blunt. All right. So you were there. You've read 
since he was there. You may have seen him. But you had no room 
where you were having meetings with individuals to have 
discussions at the Mayflower Hotel that day?
    General Sessions. No, that is correct.
    Senator Blunt. Well, whenever you talked to Mr. Comey after 
he had his meeting with the President, do you think that was 
probably the next day? You didn't stay afterwards and see him 
after he left the Oval Office that night?
    General Sessions. No. I understand his testimony may have 
suggested that it happened right afterwards. But it was either 
the next morning, which I think it was, or maybe the morning 
after that. It was, we had a three times a week national 
security briefing with the FBI that I undertake. And so it was 
after that that we had that conversation.
    Senator Blunt. When you had that conversation. Now, what 
I'm not quite clear on is, did you respond when he expressed 
his concern or not?
    General Sessions. Yes, I did respond. I think he's 
incorrect. He indicated, I believe, that he was not totally 
sure of the exact wording of the meeting, but I do recall my 
chief of staff was with me. And we recall that I did affirm the 
longstanding written policies of the Department of Justice 
concerning communications with the White House. We have to 
follow those rules. And in the long run, you're much better off 
if you do.
    They do not prohibit communications one on one by the FBI 
director with the President, but if that conversation moves 
into certain areas, the rules apply to the Department of 
Justice, so it's the duty of the FBI agent to say, Mr. 
President, I can't talk about that. That's the way that should 
work. And apparently it did, because he says he did not 
improperly discuss matters with the President.
    Senator Blunt. When Mr. Comey talked to you about that 
meeting, did he mention Mr. Flynn?
    General Sessions. No, he mentioned no facts of any kind. He 
did not mention to me that he'd been asked to do something he 
thought was improper. He just said he was uncomfortable, I 
believe, with it.
    Senator Blunt. After that discussion with Mr. Comey----
    General Sessions. Actually, I don't know that he said he 
was uncomfortable. I think he said maybe--maybe it was what--
what he testified to was perhaps the correct wording. I'm not 
sure exactly what he said, but I don't dispute it.
    Senator Blunt. Well, exactly what I think he's--what I 
remember him saying was that you didn't react at all and kind 
of shrugged, but you're saying you referred him to the normal 
way these meetings are supposed to be conducted.
    General Sessions. I took it as a concern that he might be 
asked something that was improper, and I affirmed to him his 
willingness to say no or not go in an improper way, improper 
direction.
    Senator Blunt. I'll just say finally, I'm assuming you 
wouldn't talk about this because it would relate to the May 8th 
meeting, but my sense is that no decision is final until it's 
carried out. My guess is that there are people at this dais who 
have said they were going to let somebody go or fire somebody 
that never did that.
    So the fact that the President said that on May 8th doesn't 
mean that the information he got from you on May 9th was not 
necessary or impactful. And I'm sure you're not going to say 
how many times the President said, we ought to get rid of that 
person, but I'm sure that's happened.
    Chairman Burr. Senator King.
    Senator King. Mr. Attorney General, thank you for joining 
us today. I respect----
    General Sessions. Thank you.
    Senator King [continuing]. Your willingness to be here.
    General Sessions. Thank you.
    Senator King. You testified a few minutes ago, I'm not able 
to invoke executive privilege; that's up to the President. Has 
the President invoked executive privilege in the case of your 
testimony here today?
    General Sessions. He has not.
    Senator King. Then what is the basis of your refusal to 
answer these questions?
    General Sessions. Senator King, the President has a 
constitutional----
    Senator King. I understand that. But the President hasn't 
asserted it.
    General Sessions. Well, I----
    Senator King. You said you don't have the power to assert 
the power of executive privilege, so what is the legal basis 
for your refusal to answer these questions?
    General Sessions. I am protecting the right of the 
President to assert it if he chooses, and there may be other 
privileges that could apply in this circumstance.
    Senator King. Well, I don't understand how you can have it 
both ways. The President can't not assert it--and you've 
testified that only the President can assert it, and yet,--I 
just don't understand the legal basis for your refusal to 
answer.
    General Sessions. Well, what we try to do, I think most 
Cabinet officials, others that you questioned recently, 
officials before the committee, protect the President's right 
to do so. If it comes to a point where the issue is clear and 
there is a dispute about it, at some point the President will 
either assert the privilege or not, or some other privilege can 
be--would be asserted.
    But at this point, I believe it's premature for me to 
deny----
    Senator King. You're asserting a privilege that the 
President you've testified----
    General Sessions. It would be premature for me to deny the 
President a full and intelligent choice about executive 
privilege. That's not necessary at this point.
    Senator King. You testified a few minutes ago that, quote 
``We were asked for our opinion.'' Who asked for your opinion?
    General Sessions. You mean----
    Senator King. You just testified, ``We were asked for our 
opinion,'' you and Rod Rosenstein.
    General Sessions. My understanding is--I believe I'm 
correct in saying the President has said so, that----
    Senator King. So he didn't ask you directly?
    General Sessions. I thought you were asking about the 
privilege.
    Senator King. No, no, I'm sorry.
    General Sessions. Do you want to go back to the----
    Senator King. I'm saying, you said, quote ``We were asked 
for our opinion,'' you and Mr. Rosenstein.
    General Sessions. I believe that was appropriate for me to 
say that because I think the President had said----
    Senator King. No, I'm just asking you----
    General Sessions. I'm just saying why----
    Senator King. [continuing]. Who asked for your opinion? Who 
asked you for your opinion?
    General Sessions. Yes, right. The President asked for our 
opinion.
    Senator King. All right. So you just testified as to the 
content of a communication from the President.
    General Sessions. That is correct, but I believe he's 
already revealed that. I believe I'm correct in saying that. 
That's why I indicated that when I answered that question.
    But if he hasn't and I'm in error, I would----
    Senator King. So you can----
    General Sessions [continuing]. Have constricted his 
constitutional right of privilege. You're correct.
    Senator King. So you're being selective about the use----
    General Sessions. No, I'm not intentionally. I'm doing so 
only because I believe he made that--he has been public about 
that.
    Senator King. In any of your discussions with the President 
about the firing of James Comey, did the question of the 
Russian investigation ever come up?
    General Sessions. I cannot answer that because it was a 
communication by the President or, if any such occurred, it 
would be a communication that he has not waived.
    Senator King. But he has not asserted executive privilege?
    General Sessions. He has not asserted executive privilege 
to date.
    Senator King. Do you believe the Russians interfered with 
the 2016 elections?
    General Sessions. It appears so. The intelligence community 
seems to be united in that. But I have to tell you, Senator 
King, I know nothing but what I've read in the paper. I've 
never received any detailed briefing on how a hacking occurred 
or how information was alleged to have influenced the campaign.
    Senator King. Well, between the election, there was a 
memorandum from the intelligence community on October 9th that 
detailed what the Russians were doing. After the election, 
before the inauguration, you never sought any information about 
this rather dramatic attack on our country?
    General Sessions. No. I----
    Senator King. You never asked for a briefing or attended a 
briefing or read the intelligence reports?
    General Sessions. You might have been very critical of me 
if I, as an active part of the campaign, was seeking 
intelligence relating to something that might be relevant to 
the campaign. I'm not sure that would have been----
    Senator King. I'm not talking about the campaign; I'm 
talking about what the Russians did. You received no briefing 
on the Russian active measures in connection with the 2016 
election?
    General Sessions. No, I don't believe I ever did.
    Senator King. Let's go to your letter of May 9th. You said, 
``Based upon my evaluation and for the reasons expressed by 
deputy.'' Was that a written evaluation?
    General Sessions. My evaluation was an evaluation that had 
been going on for some months.
    Senator King. Was there a written evaluation?
    General Sessions. I did not make one. I think you could 
classify Deputy Attorney General Rosenstein's memorandum as an 
evaluation, and he was the direct supervisor of the FBI 
Director.
    Senator King. And his evaluation was based 100 percent on 
the handling of the Hillary Clinton e-mails, is that correct?
    General Sessions. Well, and a number of other matters, as I 
recall, but he did explicitly lay out the errors that he 
thought had been made in that process by the Director of the 
FBI. I thought they were cogent and accurate and far more 
significant than I think a lot of people have understood.
    Senator King. Thank you, Mr. Chairman.
    Chairman Burr. Senator Lankford.
    Senator Lankford. Thank you, Mr. Chairman.
    Attorney General Sessions, it's good to see you again.
    General Sessions. Thank you, Senator Lankford.
    Senator Lankford. You speak as a man eager to set the 
record straight. You've spoken very bluntly from the very 
beginning from your opening statement all the way through this 
time.
    I am amazed at the conversations, as if an Attorney General 
has never said there were private conversations with the 
President and we don't need to discuss those. It seems to be a 
short memory about some the statements Eric Holder would and 
would not make to any committee in the House or the Senate, and 
would or would not turn over documents, even requested. That 
had to go all the way through the court system to finally the 
courts having to say, no, the President can't hold back 
documents and the Attorney General can't do that.
    So somehow some accusation that you're not saying every 
conversation about everything. There's a long history of 
Attorney Generals standing beside the President saying there 
are some conversations that are confidential and then it can we 
determined from there.
    It does seem as well that every unnamed source story 
somehow gets a hearing. I was in the hearing this morning with 
Rod Rosenstein as we dealt with the appropriations requests 
that originally, obviously, you were scheduled to be at, that 
Rod Rosenstein was taking your place to be able to cover. He 
was very clear--he was peppered with questions about Russia 
during that conversation as well. He was very clear that he has 
never had conversations with you about that, and that you have 
never requested conversations about that.
    He was also peppered with questions of the latest rumor of 
the day, that is, somehow the President is thinking about 
firing Robert Mueller and getting rid of him, and was very 
clear that Rosenstein himself said, I am the only one that 
could do that and I'm not contemplating that, nor would I do 
that. And no one has any idea where the latest unnamed-source 
story of the day is coming from, but somehow it's grabbing all 
the attention.
    I do want to be able to bring up a couple things to you 
specifically. One is to define the word ``recuse.'' And I come 
back to your e-mail that you sent to Jim Comey and others that 
day on March the 2nd. This was what you had said during--in 
your e-mail:
    ``After careful consideration, following meetings with 
career Department officials over the course of this past 
several weeks, the Attorney General has decided to recuse 
himself from any existing or future investigations of any 
matters related in any way to the campaigns for President of 
the United States. The Attorney General's recusal is not only 
with respect to such investigations, if any, but also extends 
to the Department responses to Congressional and media 
inquiries related to such investigations.''
    Is that something you have maintained from March 2nd on?
    General Sessions. Absolutely. Actually, I maintained it 
from the first day I became Attorney General. We discussed 
those matters and I felt until and if I ever made a decision to 
not recuse myself, I should not, as an abundance of caution, 
involve myself in studying the investigation or evaluating it.
    Senator Lankford. Right.
    General Sessions. So I did not.
    I also would note that the memorandum from my chief of 
staff directs these agencies--and one of the people directly it 
was sent to was James B. Comey, the Director of the FBI--``You 
should instruct members of your staffs not to brief the 
Attorney General or any other officials in the Office of the 
Attorney General about or otherwise involve the Attorney 
General or other officials in the Office of the Attorney 
General in any such matters described above.''
    Senator Lankford. And you haven't requested----
    General Sessions. So we took the proper and firm and 
crystal-clear position that the recusal meant recusal.
    Senator Lankford. Relating to this April 27th meeting, non-
meeting, in the same room at the same time, the National 
Interest was asked specifically about this as well, who was the 
host of that event. They stated this in writing:
    ``As the host, the Center for National Interest decided 
whom to invite and then issued the invitations. The Trump 
campaign did not determine or approve the invitation list. 
Guests at the event included both Democrats and Republicans, 
with some among the latter supporting other candidates. Most of 
the guests were Washington-based foreign policy experts and 
journalists.
    ``The Center for National Interest invited Russian 
Ambassador Kislyak and several other ambassadors to the speech. 
We regularly invite ambassadors and other foreign 
representatives to our events to facilitate dialogue.''
    And then they stated: ``We seated all four in the front row 
during the speech in deference to their diplomatic status. The 
Trump campaign had nothing to do with the seating arrangement. 
The Center for National Interest extended equal treatment to 
the foreign ambassadors attending the event and invited each to 
a short reception prior to the Trump speech.
    ``The reception included approximately two dozen guests in 
a receiving line. The line moved quickly and any conversations 
with Mr. Trump in that setting were inherently brief and could 
not be private. Our recollection is that the interaction 
between Mr. Trump and the Ambassador Kislyak was limited to 
polite exchange of pleasantries, appropriate on such occasions.
    ``We're not aware of any conversation between Ambassador 
Kislyak and Senator Jeff Sessions at the reception. However, in 
a small group setting like this one, we consider it unlikely 
that anyone could have engaged in a meaningful private 
conversation without drawing attention from others present.''
    Do you have any reason to disagree with that?
    General Sessions. No, I think that's a very fair 
description of the reception situation. I appreciate them 
having made that statement.
    Senator Lankford. Great. I yield back.
    Chairman Burr. Senator Manchin.
    Senator Manchin. Mr. Chairman, thank you.
    Thank you, Mr. General, for being here. It's good to see 
you again.
    General Sessions. Thank you, Senator Manchin.
    Senator Manchin. Sir, I want to follow up a little bit on 
what Senator King had asked concerning--you and I are about the 
same vintage, and we remember back in our lifetime we've never 
known the Russians to be, the Russian government or the Russian 
military to ever be our friend and wanting the same things we 
wanted out of life.
    With that being said, the seriousness of this Russian 
hacking is very serious to me and concerning. And you were 
saying that you had not been briefed on that.
    October, I think it was October 9th when it was known, that 
the ODNI at that time, I think Mr. Clapper, and also Mr. Jeh 
Johnson, Homeland Security, made that public what was going on. 
Then on December 29th, President Obama at that time expelled 35 
Russian diplomats, denied access to two Russian-owned 
compounds, and he broadened the existing sanctions.
    Sir, I would ask, did you have any discussions at all, have 
you had any discussions or sat in on any type of meetings, 
where recommendations were made to remove those sanctions?
    General Sessions. I don't recall any such meeting.
    Senator Manchin. And during the time, not from the 
President being inaugurated on January 20th, prior to that, in 
the campaign up until through the transition, was there ever 
any meetings that he showed any concern or consideration or 
just inquisitive of what the Russians were really doing and if 
they'd really done it?
    General Sessions. I don't recall any such conversation. I'm 
not sure I understood your question. Maybe I better listen 
again.
    Senator Manchin. Well, you were part of the national 
security team.
    General Sessions. Yes.
    Senator Manchin. So if he would have heard something about 
Russia and with their capabilities and our concern about what 
they could do to our election process, was there ever any 
conversations concerning that whatsoever?
    General Sessions. I don't recall it, Senator Manchin.
    Senator Manchin. I know it's been asked of you, the things 
that, you know, your executive privileges and protecting the 
President. I understand that. But also, when we had Mr. Comey 
here, you know, he couldn't answer a lot of things in open 
session. He agreed to go into a closed session. Would you be 
able to go into a closed session? Would it change your answers 
to us or your ability to speak more frankly on some things we 
would want to know?
    General Sessions. Senator Manchin, I'm not sure. The 
executive privilege is not waived by going in camera or in 
closed session. It may be that one of the concerns is that when 
you have an investigation ongoing, as the special counsel does, 
it's often very problematic to have persons, you know, not 
cooperating with that counsel in the conduct of the 
investigation, which may or may not be a factor in going into 
closed session.
    Senator Manchin. It would be very helpful, I think. The 
committee, there's a lot questions they'd like to ask, and I 
know that you would like to answer if possible. And maybe we 
can check into that a little further.
    If I could, sir, did you have any meetings, any other 
meetings with Russian government officials that have not been 
previously disclosed?
    General Sessions. I have racked my brain and I do not 
believe so.
    Senator Manchin. Are there any other----
    General Sessions. I can assure you that none of those 
meetings discussed manipulating a campaign in the United States 
in any way, shape, or form, or any hacking or any such ideas 
like that.
    Senator Manchin. I'm going to go quick through this. Are 
there any other meetings between Russian government officials 
and any other Trump campaign associates that have not been 
previously disclosed that you know of?
    General Sessions. I don't recall any.
    Senator Manchin. To the best of your knowledge, did any of 
the following individuals meet with Russian officials at any 
point during the campaign? You can just go yes or no as I go 
down through the list.
    Paul Manafort?
    General Sessions. Repeat that now? Would you start over?
    Senator Manchin. To the best of your knowledge, sir, did 
any of these following individuals meet with Russian officials 
at any point during the campaign? And you can just yes or no of 
this.
    Paul Manafort?
    General Sessions. I don't have any information that he had 
done so. He served as campaign chairman for a few months.
    Senator Manchin. Steve Bannon?
    General Sessions. I have no information that he did.
    Senator Manchin. General Michael Flynn?
    General Sessions. I don't recall it.
    Senator Manchin. Reince Priebus?
    General Sessions. I don't recall.
    Senator Manchin. Steve Miller?
    General Sessions. I don't recall him ever having such a 
conversation.
    Senator Manchin. Corey Lewandowski?
    General Sessions. I do not recall any of those individuals 
having any meeting with Russian officials.
    Senator Manchin. Carter Page?
    General Sessions. I don't know.
    Senator Manchin. And I would finally ask this question, 
because I always think--we try to get--you have innate 
knowledge----
    General Sessions. There may have been some published 
accounts of Mr. Page talking with the Russians. I'm not sure. I 
don't recall.
    Senator Manchin. Okay.
    As a former Senator, you bring a unique, holistic 
perspective to this investigation, because you've been on both 
sides.
    General Sessions. I have indeed.
    Senator Manchin. If you were----
    General Sessions. All in all, it's better on that side.
    Senator Manchin. If you were sitting on this side of the 
dais--okay----
    General Sessions. Nobody gets to ask you about your private 
conversations with your staff.
    [Laughter.]
    Senator Manchin. Well, here we go, you get your chance to 
give us some advice. If you were sitting on this side of the 
dais, what question would you be asking?
    General Sessions. I would be asking questions related to 
whether or not there was an impact on this election----
    Senator Manchin. And what part of the story do you think 
we're missing?
    General Sessions [continuing]. By a foreign power, 
particularly the Russians, since the intelligence community has 
suggested and stated that they believe they did, but I do think 
members of this government have offices to run----
    Senator Manchin. Is there part of the story we're missing?
    General Sessions [continuing]. And departments to manage. 
And the questions should be focused on that.
    Senator Manchin. Is there a part of the story we're 
missing? I'm so sorry, Mr. Chairman. Is there part of the story 
we're missing?
    General Sessions. I don't know because I'm not involved in 
the investigation and had no information concerning it. I have 
no idea at what stage it is. You members of this committee know 
a lot more than I.
    Senator Manchin. Thank you, General Sessions.
    Chairman Burr. General Sessions, I will assure you we are 
very much focused on Russia's involvement and our hope is that 
as we complete this process we will lay those facts out for the 
American people so they can make their own determinations as 
well. We're grateful for what you've done.
    Senator Cotton.
    Senator Cotton. Well, I am on this side of the dais, so I 
can say a very simple question that should be asked. I am on 
this side of the dais, so a very simple question that should be 
asked is: Did Donald Trump or any of his associates in the 
campaign collude with Russia in hacking those e-mails and 
releasing them to the public? That's where we started six 
months ago.
    We have now heard from six of the eight Democrats on this 
committee and to my knowledge I don't think a single one of 
them asked that question. They've gone down lots of other 
rabbit trails, but not that question. Maybe that is because Jim 
Comey said last week, as he said to Donald Trump, told him 
three times, he assured him he was not under investigation. 
Maybe it's because multiple Democrats on this committee have 
stated that they have seen no evidence thus far, after 6 months 
of our investigation and 10 months--or 11 months of an FBI 
investigation, of any such collusion.
    I would just suggest: What do we think happened at the 
Mayflower? Mr. Sessions, are you familiar with what spies 
called tradecraft?
    General Sessions. A little bit.
    Senator Cotton. That involves things like covert 
communications and dead drops and brush passes, right?
    General Sessions. That is part of it.
    Senator Cotton. Do you like spy fiction, John le Carre, 
Daniel Silva, Jason Matthews?
    General Sessions. Yeah, Alan Furst, David Ignatius. Just 
finished Ignatius' book.
    Senator Cotton. Do you like Jason Bourne or James Bond 
movies?
    General Sessions. No--yes----
    [Laughter.]
    General Sessions [continuing]. I do.
    Senator Cotton. Have you ever in any of these fantastical 
situations heard of a plot line so ridiculous that a sitting 
United States Senator and an ambassador of a foreign government 
colluded at an open setting with hundreds of other people to 
pull off the greatest caper in the history of espionage?
    General Sessions. Thank you for saying that, Senator 
Cotton. It's just like ``Through the Looking Glass.'' I mean, 
what is this? I explained how in good faith I said I had not 
met with Russians because they were suggesting I, as a 
surrogate, had been meeting continuously with Russians. I said 
I didn't meet with them.
    And now the next thing you know, I'm accused of some 
reception, plotting some sort of influence campaign for the 
American election. It's just beyond my capability to 
understand, and I really appreciate, Mr. Chairman, the 
opportunity at least to be able to say publicly I didn't 
participate in that and know nothing about it.
    Senator Cotton. And I gather that's one reason why you want 
to testify today in public.
    Last week, Mr. Comey, in characteristic dramatic and 
theatrical fashion, alluded ominously to what you call 
innuendo, that there was some kind of classified intelligence 
that suggested you might have colluded with Russia, or that you 
might have otherwise acted improperly. You've addressed those 
allegations here today. Do you understand why he made that 
allusion?
    General Sessions. Actually, I do not. Nobody has provided 
me any information about that.
    Senator Cotton. Thank you. My time is limited. I have a lot 
of questions.
    Mr. Blunt asked you if you had spoken in response to Mr. 
Comey's statement to you after his private meeting with the 
President on February 14th or February 15th. You said that you 
did respond to Mr. Comey. Mr. Comey's testimony said that you 
did not. Do you know why Mr. Comey would've said that you did 
not respond him on that conversation with you February 14th or 
15th?
    General Sessions. I do not. There was a little 
conversation, not very long, but there was a conversation and I 
did respond to him, perhaps not to everything he asked. But I 
did respond to him, I think in an appropriate way.
    Senator Cotton. Do you know why Mr. Comey mistrusted 
President Trump from their first meeting on January 6th? He 
stated last week that he did, but he didn't state anything from 
that meeting that caused him to have such mistrust.
    General Sessions. I'm not able to speculate on that.
    Senator Cotton. Let's turn to the potential crimes that we 
know have happened, leaks of certain information. Here's a 
short list of what I have: the contents of alleged transcripts 
of alleged conversations between Mr. Flynn and Mr. Kislyak; the 
contents of President Trump's phone calls with Australian and 
Mexican leaders; the content of Mr. Trump's meetings with the 
Russian foreign minister and ambassador; the leak of Manchester 
bombing--the Manchester bombing suspect's identity and crime 
scene photos; and last week, within 20 minutes of this 
committee meeting in a classified setting with Jim Comey, the 
leak of what the basis of Mr. Comey's innuendo was.
    Are these leaks serious threats to our national security? 
And is the Department of Justice taking them with the 
appropriate degree of seriousness in investigating and 
ultimately going to prosecute them to the fullest extent of the 
law?
    General Sessions. Thank you, Senator Cotton. We have had 
one successful case very recently in Georgia. That person has 
been denied bail, I believe, and is being held in custody.
    But some of these leaks, as you well know, are 
extraordinarily damaging to the United States' security, and we 
have got to restore a regular order principle. We cannot have 
persons in our intelligence agencies, our investigative 
agencies, or in Congress leaking sensitive matters, or staff. 
So this I'm afraid will result in, is already resulting in 
investigations, and I fear that some people may find that they 
wish they hadn't have leaked.
    Senator Cotton. Thank you. My time has expired.
    But for the record, it was stated earlier that the 
Republican platform was weakened on the point of arms to 
Ukraine. That is incorrect. The platform was actually 
strengthened. And I would note that it was the Democratic 
President who refused repeated bipartisan requests of this 
Congress to supply those arms to Ukraine.
    Chairman Burr. Senator Harris.
    Senator Harris. Attorney General Sessions, you have several 
times this afternoon prefaced your responses by saying ``to the 
best of your recollection.'' Just on the first page of your 
three pages of written testimony, you wrote ``nor do I 
recall,'' ``do not have recollection,'' ``do not remember it.''
    So my question is, for any of your testimony today, did you 
refresh your memory with any written documents, be they your 
calendar, written correspondence, e-mails, notes of any sort?
    General Sessions. I attempted to refresh my recollection, 
but so much of this is in a wholesale campaign of extraordinary 
nature that you're moving so fast that you don't keep notes. 
You meet people--I didn't keep notes of my conversation with 
the Russian ambassador at the Republican convention, but you--
--
    Senator Harris. Sir, I'd like to just talk about what you 
did keep notes of.
    General Sessions. You know, I was just saying, I didn't 
keep notes on most of these things. And there's nothing for 
me----
    Senator Harris. Will you provide this committee with the 
notes that you did maintain?
    General Sessions. As appropriate, I will supply the 
committee with documents.
    Senator Harris. Can you please tell me what you mean when 
you say ``appropriate?''
    General Sessions. I would have to consult with the lawyers 
in the Department who know the proper procedure, before 
disclosing documents that are held within the Department of 
Justice.
    Senator Harris. Attorney General----
    General Sessions. I'm not able to make that opinion today.
    Senator Harris. Sir, I'm sure you prepared for this hearing 
today and most of the questions that have been presented to you 
were predictable. So my question to you is, did you then review 
with the lawyers of your Department, if you as the top lawyer 
are unaware, what the law is regarding what you can share with 
us and what you cannot share with us, what is privileged and 
what is not privileged?
    General Sessions. We discussed the basic parameters of 
testimony. I, frankly, have not discussed documentary 
disclosure rules.
    Senator Harris. Will you make a commitment to this 
committee that you will share any written correspondence, be 
they your calendars, records, notes, e-mails, or anything that 
has been reduced at any point in time in writing, to this 
committee where legally you actually have an obligation to do 
so?
    General Sessions. I will commit to reviewing the rules of 
the Department and when that issue is raised to respond 
appropriately.
    Senator Harris. Did you have any communications with 
Russian officials for any reason during the campaign that have 
not been disclosed in public or to this committee?
    General Sessions. I don't recall it. But I have to tell 
you, I cannot testify to what was said as we were standing at 
the Republican convention before the podium where I spoke.
    Senator Harris. My question only----
    General Sessions. I don't have a detailed memory of that.
    Senator Harris. Okay. As it relates to your knowledge, did 
you have any communication with any Russian businessman or any 
Russian nationals?
    General Sessions. I don't believe I had any conversation 
with Russian businessmen or Russian nationals.
    Senator Harris. Are you aware of any communication----
    General Sessions. Although a lot of people were at the 
convention. It's conceivable that somebody came up to me----
    Senator Harris. Sir, I have just a few----
    General Sessions. Will you let me qualify it?
    Senator Harris. Okay.
    General Sessions. If I don't qualify it, you'll accuse me 
of lying; so I need to be correct as best I can.
    Senator Harris. I do want you want to be honest.
    General Sessions. And I'm not able to be rushed this fast. 
It makes me nervous.
    Senator Harris. Are you aware of any communications with 
other Trump campaign officials and associates that they had 
with Russian officials or any Russian nationals?
    General Sessions. I don't recall that.
    Senator Harris. And are you aware----
    General Sessions [continuing]. At this moment.
    Senator Harris. Are you aware of any communications with 
any Trump officials or did you have any communications with any 
officials about Russia or Russian interests in the United 
States before January 20th?
    General Sessions. No. I may have had some conversations, 
and I think I did, with the general strategic concept of the 
possibility of whether or not Russia and the United States 
could get on a more harmonious relationship and move off the 
hostility. The Soviet Union did in fact collapse. It's really a 
tragic----
    Senator Harris. Thank you.
    General Sessions [continuing]. Strategic event that we are 
not able to get along better than we are today.
    Senator Harris. Before being sworn in as Attorney General, 
how did you typically communicate with then-candidate or 
President-elect Trump?
    General Sessions. Would you repeat that?
    Senator Harris. Before you were sworn in as Attorney 
General, how did you typically communicate with then-candidate 
or President-elect Trump?
    General Sessions. I did not submit memoranda.
    Senator Harris. Did you communicate in writing?
    General Sessions. I did not make formal presentations.
    Senator Harris. Did you ever communicate with him in 
writing?
    General Sessions. I don't believe so.
    Senator Harris. And you referred to a long-standing DOJ 
policy. Can you tell us what policy it is you're talking about?
    General Sessions. Well, I think most Cabinet people, as the 
witnesses you had before you earlier, those individuals 
declined to comment because we're all--about conversations with 
the President----
    Senator Harris. Sir, I'm just asking you about the DOJ 
policy you referred to.
    General Sessions [continuing]. Because that's longstanding 
policy that goes beyond just the Attorney General.
    Senator Harris. Is that policy in writing somewhere?
    General Sessions. I think so.
    Senator Harris. So did you not consult it before you came 
before this committee, knowing we would ask you questions about 
it?
    General Sessions. Well, we talked about it. The policy is 
based----
    Senator Harris. Did you ask that it would be shown to you?
    General Sessions. The policy is based on the principle that 
the President----
    Senator Harris. Sir, I'm not asking about the principle. I 
am asking----
    General Sessions. Well, I'm unable to answer the question.
    Senator Harris [continuing]. When you knew you would be 
asked these questions and you would rely on that policy, did 
you not ask----
    Senator McCain. Mr. Chairman.
    Senator Harris [continuing]. Your staff to show you the 
policy that would be the basis for your refusing to answer the 
majority of questions that been asked of you?
    Senator McCain. Mr. Chairman, the witness should be allowed 
to answer the question.
    Chairman Burr. Senators will allow the Chair to control the 
hearing.
    Senator Harris, let him answer.
    Senator Harris. Please do. Thank you.
    General Sessions. We talked about it, and we talked about 
the real principle that's at stake. It's one that I have some 
appreciation for, as having spent 15 years in the Department of 
Justice, 12 as United States attorney, and that principle is 
that the Constitution provides the head of the Executive Branch 
certain privileges, and that one of them is confidentiality of 
communications. And it is improper for agents of any of the 
departments in the Executive Branch to waive that privilege 
without a clear approval of the President.
    Senator Harris. Mr. Chairman, I have asked----
    General Sessions. And that's the situation we're in.
    Senator Harris [continuing]. Mr. Sessions for a yes or no? 
Did you ask your staff to----
    General Sessions. So the answer is yes, I consulted.
    Senator Harris [continuing]. To review the policy?
    Chairman Burr. The Senator's time has expired.
    Senator Harris. Apparently not.
    Chairman Burr. Senator Cornyn.
    Senator Cornyn. Attorney General Sessions, former Director 
Comey in his letter to FBI employees when he was terminated 
started this way. He said, ``I've long believed that a 
President can fire an FBI director for any reason or no reason 
at all.'' Do you agree with that?
    General Sessions. Yes, and I think that was good for him to 
say, because I believe we're going to have a new and excellent 
FBI director, a person who is smart, disciplined, with 
integrity and proven judgment, that would be good for the 
Bureau. And I think that statement probably was a valuable 
thing for Director Comey to say and I appreciate that he did.
    Senator Cornyn. Just to reiterate the timeline of your 
recusal and the Rosenstein memo and your letter to the 
President recommending the termination of Director Comey: You 
recused from the Russian investigation on March 2nd, correct?
    General Sessions. The formal recusal took place on that 
day.
    Senator Cornyn. The letter that you wrote forwarding the 
Rosenstein memo to the President as a basis for Director 
Comey's termination was dated May the 9th, a couple months 
after you recused from the Russian investigation, correct?
    General Sessions. I believe that's correct.
    Senator Cornyn. So isn't it true that the Russian 
investigation did not factor into your recommendation to fire 
Director Comey?
    General Sessions. That is correct.
    Senator Cornyn. The memorandum written by the Deputy 
Attorney General, your letter to the President forwarding that 
recommendation, didn't mention Russia at all. Is that your 
recollection?
    General Sessions. That is correct.
    Senator Cornyn. So let's review what the basis was of 
Deputy Attorney General Rosenstein's recommendation. He wrote 
in his memo on May 9th, he said, ``I cannot defend the 
Director's handling of the conclusion of the investigation of 
Secretary Clinton's e- mails and I do not understand his 
refusal to accept the nearly universal judgment that he was 
mistaken.'' And of course he's talking about Director Comey.
    He went on to say, ``The Director''--that was Director 
Comey at the time--``was wrong to usurp the Attorney General's 
authority on July the 5th, 2016.'' You'll recall that was the 
date of the press conference he held. He went on to say that 
``The FBI Director is never empowered to supplant Federal 
prosecutors and assume command of the Justice Department.''
    Finally, he said, ``Compounding the error, the Director 
ignored another longstanding principle, that we do not hold 
press conferences to release derogatory information about the 
subject of a declined criminal investigation.''
    In fact, there is written policy from the Department of 
Justice, is there not, entitled ``Election-Year 
Sensitivities.'' Are you familiar with the prohibition of the 
Justice Department making announcements or taking other actions 
that might interfere with the normal elections?
    General Sessions. I am generally familiar with that. Some 
of those were the Holder memoranda after my time in the 
Department.
    Senator Cornyn. Let me----
    General Sessions. There's always been rules about it, 
though.
    Senator Cornyn. Well, let me read just an excerpt from a 
memo from the Attorney General March 9th, 2012, entitled 
``Election-Year Sensitivities.'' It says, ``Law enforcement 
officers and prosecutors may never select the timing of 
investigative steps or criminal charges for the purpose of 
affecting any election or for the purpose of giving an 
advantage or disadvantage to any candidate or political party. 
Such a purpose is inconsistent with the Department's mission 
and with the principles of Federal prosecution.''
    Do you agree with that?
    General Sessions. Essentially, yes.
    Senator Cornyn. So what essentially the Deputy Attorney 
General said is that former Director Comey violated Department 
of Justice directives when he held a press conference on July 
5th, 2016, he announced that Secretary Clinton was extremely 
careless with classified e-mail, and went on to release other 
derogatory information including his conclusion that she was 
extremely careless, but yet went on to say that no reasonable 
prosecutor would prosecute her.
    That is not the role of the FBI director, is it? That is a 
job for the prosecutors at the Department of Justice. That's 
what was meant by Deputy Attorney General Rosenstein when he 
said that Director Comey usurped the role of the Department of 
Justice prosecutors; is that right?
    General Sessions. That is correct. And former Attorney 
General Bill Barr wrote an op-ed recently in which he said he 
had assumed that Attorney General Lynch had urged Mr. Comey to 
make this announcement so she wouldn't have to do it. But in 
fact it appears he did it without her approval totally, and 
that is a pretty stunning thing. It is a stunning thing and it 
violates fundamental powers.
    And then when he reaffirmed that the rightness he believed 
of his decision on May 3rd, I think it was, that was additional 
confirmation that the Director's thinking was not clear.
    Chairman Burr. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    First, a point, Attorney General. Senator Heinrich and 
others have raised the issue of longstanding rules. If there 
are written rules to this effect, would you provide them to the 
committee, please?
    General Sessions. I will.
    Senator Reed. Thank you very much.
    Now, Senator Cornyn has made the point that the whole 
substance of your recommendation to the President to dismiss 
Director Comey was his unprofessional conduct with respect to 
the Clinton administration. Is that correct?
    General Sessions. I supported everything that the Deputy 
Attorney General put in his memoranda as good and important 
factors to use in determining whether or not he had conducted 
himself in a way that justified continuing in office. I think 
it pretty well speaks for itself. And I believe most of it did 
deal with that.
    The discussion about his performance was a bipartisan 
discussion. It began during the election time. Democrats were 
very unhappy about the way he conducted himself. And in 
retrospect, in looking at it, I think it was more egregious 
than I may have even understood at the time. With regard to----
    Senator Reed. General, if I may. I don't want to cut you 
off.
    General Sessions. Okay, I'll let you go. I'm sorry.
    Senator Reed. Excuse me, sir. On July 7th when Mr. Comey 
made his first announcement about the case, you were on Fox 
News and you said first of all, ``Director Comey is a skilled 
former prosecutor,'' and then you concluded by saying 
essentially that it's not his problem, it's Hillary Clinton's 
problem.
    Then in November, on November 6th, after Mr. Comey again 
made news in late October by reopening, if you will, the 
investigation, you said again on Fox News: ``You know, FBI 
Director Comey did the right thing when he found new evidence. 
He had no choice but to report it to the American Congress, 
where he had under oath testified. The investigation was over. 
He had to correct that and say this investigation is ongoing 
now. I'm sure it's significant or else he wouldn't have 
announced that.''
    So in July and November Director Comey was doing exactly 
the right thing. You had no criticism of him. You felt that in 
fact he was a skilled professional prosecutor. You felt that 
his last statement in October was fully justified. So how can 
you go from those statements to agreeing with Mr. Rosenstein 
and then asking the President or recommending he be fired?
    General Sessions. I think in retrospect, as all of us began 
to look at that clearly and talk about it, as perspectives of 
the Department of Justice, once the Director had first got 
involved and embroiled in a public discussion of this 
investigation, which would have been better never to have been 
discussed publicly, and said it was over, then when he found 
new evidence that came up, I think he probably was required to 
tell Congress that it wasn't over, that new evidence had been 
developed.
    It probably would have been better and would have been 
consistent with the rules of the Department of Justice to never 
have talked about the investigation to begin with. Once you get 
down that road, that's the kind of thing that you get into. 
That went against classical prosecuting policies that I learned 
and was taught when I was a United States attorney and 
assistant United States attorney.
    Senator Reed. If I may ask another question. Your whole 
premise in recommending to the President was the actions in 
October involving Secretary of State Clinton, the whole Clinton 
controversy. Did you feel misled when the President announced 
that his real reason for dismissing Mr. Comey was the Russian 
investigation?
    General Sessions. I'm not able to characterize that fact. I 
wouldn't try to comment on that.
    Senator Reed. So you had no inkling that there was anything 
to do with Russia until the President of the United States 
basically declared, not only on TV, but in the Oval Office to 
the Russian foreign minister saying, the pressure is off now, I 
got rid of that nut-job? That came to you as a complete 
surprise?
    General Sessions. Well, all I can say is, Senator Reed, 
that our recommendation was put in writing. And I believe it 
was correct. And I believe the President valued it, but how he 
made his decision was his process.
    Senator Reed. And you had no inkling that he was 
considering the Russian investigation?
    General Sessions. Well, I'm not going to try to guess what 
I thought at the time----
    Senator Reed. No, that's fair. Just there is a scenario in 
which this whole recapitulation of Clinton was a story, 
basically a cover story that the President sort of tried to put 
out, and that he quickly abandoned, and his real reason was the 
Russian investigation, which if it had been the case, I would 
suspect you in principle would have recused yourself from any 
involvement.
    Thank you.
    Chairman Burr. Senator McCain.
    Senator McCain. Over the last few weeks, the Administration 
has characterized your previously undisclosed meetings with 
Russian Ambassador Kislyak as meetings you took in your 
official capacity as a U.S. Senator and a member of the Senate 
Armed Services Committee. As Chairman of that committee, let me 
ask you a few questions about that.
    At these meetings, did you raise concerns about the Russian 
invasion of Ukraine or annexation of Crimea?
    General Sessions. I did, Senator McCain. And I would like 
to follow up a little bit on that. That's one of the issues 
that I recall explicitly. The day before my meeting with the 
Russian ambassador, I had met with the Ukrainian ambassador and 
I heard his concerns about Russia. And so I raised those with 
Mr. Kislyak, and he gave, as you can imagine, not one inch. 
Everything they did, the Russians had done, according to him 
was correct. And I remember pushing back on it, and it was a 
bit testy on that subject.
    Senator McCain. Knowing you on the committee, I can't 
imagine that.
    Did you raise concerns about Russia's support for President 
Bashar Assad and his campaign of indiscriminate violence 
against his own citizens, including his use of chemical 
weapons?
    General Sessions. I don't recall whether that was discussed 
or not.
    Senator McCain. Did you raise concerns about Russia's 
interference in our electoral process or its interference in 
the electoral processes of our allies?
    General Sessions. I don't recall that being discussed.
    Senator McCain. At those meetings, if you spoke with 
Ambassador Kislyak in your capacity as a member of the Armed 
Services Committee, you presumably talked with him about 
Russia-related security issues that you have demonstrated as 
important to you as a member of the committee?
    General Sessions. Did I discuss security issues?
    Senator McCain. I don't recall you as being particularly 
vocal on such issues.
    General Sessions. Repeat that, Senator McCain? I'm sorry.
    Senator McCain. The whole Russia-related security issues 
that you demonstrated as important to you as a member of the 
committee, did you raise those with him?
    General Sessions. You mean, such issues as nuclear issues 
or----
    Senator McCain. Yes. In other words, Russia-related 
security issues. In your capacity as the Chairman of the 
Strategic Forces Subcommittee, what Russia-related security 
issues did you hold hearings on and otherwise demonstrate a 
keen interest in?
    General Sessions. We may have discussed that. I just don't 
have a real recall of the meeting. I was not making a report 
about it to anyone. I just was basically willing to meet and 
see what he discussed.
    Senator McCain. And his response was?
    General Sessions. I don't recall.
    Senator McCain. During the 2016 campaign season, did you 
have any contacts with any representative, including any 
American lobbyist or agent of any Russian company, within or 
outside your capacity as a member of Congress or a member of 
the Armed Services Committee?
    General Sessions. I don't believe so.
    Senator McCain. Politico recently reported that in the 
middle of the 2016 elections the FBI found that Russian 
diplomats whose travel the State Department was supposed to 
track had gone missing. Some turned up wandering around the 
desert or driving around Kansas. Reportedly, intelligence 
sources concluded, after about a year of inattention, these 
movements indicate, one, that Moscow's espionage ground game 
has grown stronger and more brazen; and that quietly the 
Kremlin has been trying to map the United States 
telecommunications infrastructure.
    What do you know about this development? And how are the 
Justice Department and other relevant U.S. government agencies 
are responding to it?
    General Sessions. We need to do more, Senator McCain. I am 
worried about it. We also see that from other nations with 
these kind of technological skills like China and some of the 
other nations that are penetrating our business interests, our 
national security interests. As a member of the Armed Services 
Committee, I did support and advocate, and I think you 
supported, legislation that would--and it's ongoing now--that 
requires the Defense Department to identify weaknesses in our 
system and how we can fix them.
    But I would say to you, Senator McCain, that in my short 
tenure here in the Department of Justice I've been more 
concerned about computer hacking and those issues than I was in 
the Senate. It's an important issue, you're correct.
    Senator McCain. The Washington Post reported yesterday 
Russia has developed a cyber weapon that can disrupt the United 
States' power grids and telecommunications infrastructure. This 
weapon is similar to what Russia or Russian-allied hackers used 
to disrupt Ukraine's electrical grid in 2015.
    Can you discuss a little bit in open session how serious 
that is?
    General Sessions. I don't believe I can discuss the 
technological issues, just to say that it is very disturbing 
that the Russians continue to push hostile actions in their 
foreign policy. And it is not good for the United States or the 
world or Russia in my opinion.
    Senator McCain. Do you believe we have a strategy in order 
to counter these ever-increasing threats to our national 
security and our way of life?
    General Sessions. Not sufficient. We do not have a 
sufficient strategy dealing with technological and IT 
penetrations of our system. I truly believe it's more important 
than I ever did before. And I appreciate your concern and 
leadership on that issue. And in fact, all of Congress is going 
to have to do better.
    Chairman Burr. The Senator's time has expired.
    The Chair would recognize the Vice Chair.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    And General Sessions, thank you. And I particularly 
appreciate your last comments with Senator McCain about the 
seriousness of this threat, and it's why so many of us on this 
committee are concerned when the whole question of Russian 
intervention--the President continues to refer to it as a witch 
hunt and fake news. And there doesn't seem to be a recognition 
of the seriousness of this threat.
    I share--I think most members do--the consensus that the 
Russians massively interfered. They want to continue to 
interfere, not to favor one party of the other, but to favor 
their own interests. And it is of enormous concern that we have 
to hear from the Administration how they're going to take that 
on.
    Also, comments have been made here about where we head in 
terms of some of the Trump associates who may have had contacts 
with Russians. Candidly, we've not gotten to all of that yet 
because of the unprecedented firing of the FBI Director that 
was leading this very same Russia investigation. It superseded 
some of our activities. So those members I hope will equally 
pursue the very troubling amount of smoke at least that's out 
there between individuals that were affiliated with the Trump 
campaign and possible ties with Russians. We've not--I've not 
reached any conclusion, but we've got to pursue that.
    A final comment, and I understand your point. But you have 
to--there were a series of comments made by Mr. Comey last 
week. I think members on this side of the aisle have indicated, 
understand executive privilege, understand classified setting. 
I do think we need, as Senator Reed indicated and Senator 
Harris and others, if there are these longstanding written 
procedures about this ability to have some other category to 
protect the conversations with the President, we'd like to get 
a look at them, because we need to find out, in light of some 
of the contradictions between today and last week, where this 
all heads.
    At the end of the day, this is not only--to restate what I 
said the last time, this is not about relitigating 2016. It is 
about finding out what happened, about some of the serious 
allegations about potential ties, but on a going-forward basis, 
making sure that the Russians, who are not finished in terms of 
their activities didn't end on Election Day at 2016--we know 
that is ongoing and we have to be better prepared on a going-
forward basis.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Vice Chairman.
    General Sessions. Mr. Chairman, one brief comment if I 
might. I do want to say that a change at the top of the FBI 
should have no impact whatsoever on the investigation. Those 
teams have been working, and they'll continue to work, and they 
have not been altered in any way.
    Vice Chairman Warner. But there were a number of very 
strange comments that Mr. Comey testified last week that you 
could I believe shed some light on. But we'll continue.
    Thank you, sir.
    Chairman Burr. General Sessions, thank you again for your 
willingness to be here. Not sure that you knew it, but your 
replacement sat through most of this hearing, Luther Strange. 
He's made us regret that we don't have intramural basketball 
teams.
    [Laughter.]
    General Sessions. Big Luther was a good roundball player at 
Tulane.
    Chairman Burr. You've been asked a wide range of questions. 
And I think you've answered things related to claims about the 
meeting at the Mayflower. You've answered questions that 
surround the reasons of your recusal and the fact that you had 
never been briefed since day one on the investigation.
    But you made clear that you can't think of any other 
conversations that you've had with Russian officials. You've 
covered in detail the conversation that you had, though brief, 
with Director Comey that he referenced to after his private 
meeting with the President. Just to name a few things that I 
think you've helped us to clear up.
    There were several questions that you chose not to answer 
because of confidentiality with the President. I would only ask 
you now to go back and work with the White House to see if 
there are any areas of questions that they feel comfortable 
with you answering, and if they do, that you provide those 
answers in writing to the committee.
    I would also be remiss if I didn't remind you that those 
documents that you can provide for the committee, they would be 
helpful to us for the purpose of sorting timelines out. 
Anything that substantiates your testimony today, individuals 
who might have been at events that you're familiar with, 
especially those that worked for you, would be extremely 
helpful.
    And more importantly, I want to thank you for your 
agreement to have a continuing dialogue with us, as we might 
need to ask some additional questions as we go a little further 
down the investigation. That certainly does not have to be a 
public hearing, but it may be an exchange and a dialogue that 
we have.
    You have helped us tremendously. And we're grateful to you 
and to Mary for the unbelievable sacrifice that you made in 
this institution, but also now in this administration.
    This hearing's now adjourned.
    [Whereupon, at 5:07 p.m., the hearing was adjourned.]
  

                                  <all>
</pre></body></html>
